      United States Department of Agriculture




Office of Inspector General
Food and Nutrition Service's
Financial Statements for
Fiscal Years 2013 and 2012




                                       27401-0003-21
                                       December 2013
                                                    Food and Nutrition Service
                                        Financial Statements for Fiscal Years 2013 and 2012

                                                      Audit Report 27401-0003-21




What Were OIG’s
Objectives
Our audit objectives were to        OIG performed the annual audit of the Food
determine whether (1) the           and Nutrition Services financial statements
financial statements were
presented fairly, in all material
                                    for fiscal years 2013 and 2012.
respects, in accordance with
accepted principles; (2) the
                                    What OIG Found
internal control objectives
over financial reporting were
                                    The Food and Nutrition Service (FNS) received an unmodified
met; and (3) transactions and
                                    opinion from the Office of Inspector General’s (OIG) audit of the
events material effect to the
                                    FNS consolidated financial statements. We determined that the
financial statements were
                                    agency’s financial statements for the Fiscal Years 2013 and 2012
compliant with applicable
                                    present fairly, in all material respects, FNS’ financial position as of
laws and regulations.
                                    September 30, 2013 and 2012, and that they conform with accounting
What OIG Reviewed                   principles generally accepted in the United States of America. This
                                    includes the agency’s net costs, changes in net position, and
We performed tests at the FNS       statements of budgetary resources.
Headquarters in Alexandria,
VA, and the Federal Reserve         Our consideration of FNS’ internal control over financial reporting
Bank in Richmond, VA, to            identified no significant deficiencies or material weaknesses.
assess whether information in       However, our consideration of compliance with laws and regulations
the underlying accounting           noted an instance of noncompliance with the Improper Payments
records and other sources is        Elimination and Recovery Act of 2010.
reliable and sufficient to serve
as the basis of FNS’ financial
statements.

What OIG Recommends
This report does not include
any recommendations.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


DATE:          December 6, 2013

AUDIT
NUMBER:        27401-0003-21

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          David Burr
               Chief Financial Officer and Deputy Administrator
               for Financial Management

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Food and Nutrition Service’s Financial Statements for
               Fiscal Years 2013 and 2012

This report presents the results of our audit of the Food and Nutrition Service’s financial
statements for the fiscal years ending September 30, 2013 and 2012. The report contains an
unmodified opinion on the financial statements, as well as the results of our assessment of the
Food and Nutrition Service’s internal controls over financial reporting and compliance with laws
and regulations.

Based on the information provided during the audit, we are making no further recommendations
within this report. We appreciate the courtesies and cooperation extended to us by members of
your staff during our audit.

This report contains publicly available information and will be posted in its entirety to our
website (http://www.usda.gov/oig) in the near future.
Table of Contents

Independent Auditor’s Report............................................................................... 1
         Report on the Financial Statements .............................................................1
         Management’s Responsibility for the Financial Statements .....................1
         Auditor’s Responsibility................................................................................1
         Opinion on the Financial Statements ...........................................................2
         Other Matters.................................................................................................2
         Required Supplementary Stewardship Information..................................2
         Report on Internal Control over Financial Reporting...............................3
         Report on Compliance and Other Matters .................................................3
         Management’s Responsibility for Internal Control and Compliance ......4
         Auditor’s Responsibilities .............................................................................4
         Purpose of the Report on Internal Control over Financial Reporting
         and the Report on Compliance and Other Matters ...................................5
Abbreviations .......................................................................................................... 6
Exhibit A: Status of Prior Year Noncompliance Finding ................................... 7
Exhibit B: Agency Financial Report .................................................................... 9
Independent Auditor’s Report 
Audrey Rowe
Administrator
Food and Nutrition Service

We have audited the accompanying balance sheets of the Food and Nutrition Service (FNS), as
of September 30, 2013 and 2012, and the related statements of net cost; changes in net position;
and the combined statements of budgetary resources (hereinafter referred to as the “financial
statements”) for the fiscal years then ended. The objective of our audits was to express an
opinion on the fair presentation of these comparative financial statements. In connection with
our fiscal year 2013 audit, we also considered FNS’ internal control over financial reporting and
tested FNS’ compliance with certain provisions of applicable laws and regulations that could
have a direct and material effect on these comparative financial statements.

The following sections discuss our opinion on FNS’ comparative financial statements; our
consideration of FNS’ internal control over financial reporting; our test of FNS’ compliance with
certain provision of applicable laws and regulations; and management’s, as well as our
responsibilities.

Report on the Financial Statements
We have audited the accompanying consolidated financial statements of FNS, which are
comprised of the consolidated balance sheets as of September 30, 2013, and 2012, and the
related statements of net cost; changes in net position; and the combined statements of budgetary
resources for the fiscal years then ended and the related notes to the financial statements. The
objective of our audit was to express an opinion on the fair presentation of these financial
statements.

Management’s Responsibility for the Financial Statements
FNS’ management is responsible for the preparation and fair presentation of these financial
statements in accordance with accounting principles generally accepted in the United States of
America. This includes the design, implementation and maintenance of internal controls relevant
to the preparation and fair presentation of financial statements that are free from material
misstatement, whether due to fraud or error.

Auditor’s Responsibility
Our responsibility is to express an opinion on these financial statements based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin 14-02, Audit Requirements for Federal Financial Statements. Those



                                                              AUDIT REPORT 27401-0003-21        1
standards and OMB Bulletin 14-02 require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity’s preparation and fair presentation of the financial
statements in order to design audit procedures that are appropriate in the circumstances, but not
for the purpose of expressing an opinion on the effectiveness of the entity’s internal control.
Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness
of accounting policies used and the reasonableness of significant accounting estimates made by
management, as well as evaluating the overall presentation of the financial statements. We
believe that the audit evidence we have obtained is sufficient and appropriate to provide a
reasonable basis for our audit opinion.

Opinion on the Financial Statements
In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of FNS as of September 30, 2013, and 2012, and its net costs, changes in
net position, and budgetary resources for the years then ended, in accordance with accounting
principles generally accepted in the United States of America.

Other Matters
Required Supplementary Stewardship Information
Accounting principles generally accepted in the United States of America require that FNS’
Management Discussion and Analysis (MD&A) and other Required Supplementary Stewardship
Information (RSSI) be presented to supplement the financial statements. Such information,
although not part of the financial statements, is required by the Federal Accounting Standards
Advisory Board, which considers it to be an essential part of financial reporting for placing the
financial statements in an appropriate operational, economic, or historical context. As required
by OMB Bulletin 14-02, we have applied certain limited procedures to the MD&A and other
RSSI in accordance with auditing standards generally accepted in the United States of America,
which consisted of inquiries of management about the methods of preparing the information and
comparing the information for consistency with management’s responses to our inquiries, the
financial statements, and other knowledge we obtained during our audit of the financial
statements. We do not express an opinion or provide any assurance on the RSSI because the
limited procedures do not provide us with sufficient evidence to express an opinion or provide
any assurance.




2    AUDIT REPORT 27401-0003-21
Report on Internal Control over Financial Reporting

In planning and performing our audit of the financial statements, we considered FNS’ internal
controls over financial reporting (internal controls) to determine the audit procedures that were
appropriate in the circumstances for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of FNS’ internal
controls. Accordingly, we do not express an opinion on the effectiveness of FNS’ internal
controls.

Our consideration of internal controls was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies, and therefore, material weaknesses or significant
deficiencies may exist that were not identified during our audit.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the FNS’ financial statements will not be prevented, or
detected and corrected, on a timely basis.

A significant deficiency is a deficiency, or combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance.

OMB Bulletin 14-02 requires us to describe significant deficiencies and material weaknesses
identified during our audit; and in the event that no material weaknesses were identified, to so
report. For both our fiscal years 2013 and 2012 financial statement audits, we did not identify
and report any material weaknesses or significant deficiencies not identified by FNS in its annual
assurance statements.

Report on Compliance and Other Matters
As part of obtaining reasonable assurance about whether FNS’ financial statements were free
from material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements; noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of
the Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on
compliance with FFMIA was not an objective of our engagement, and accordingly, we do not
express such an opinion. The results of our tests of FFMIA disclosed no instances in which
FNS’ financial management systems did not substantially comply with FFMIA.


                                                                AUDIT REPORT 27401-0003-21          3
In Audit Report No. 50024-0004-11, U.S. Department of Agriculture, Improper Payments
Elimination and Recovery Act of 2010 Compliance Review for Fiscal Year 2012, issued March
14, 2013, the Office of Inspector General identified FNS’ Child and Audit Care Food Program
(CACFP) was noncompliant with the requirements of the Improper Payments Elimination and
Recovery Act of 2010 (IPERA) for a second consecutive year. Specifically, CACFP did not
report a gross estimate of improper payments for one of two CACFP components; Family Day
Care Homes Meal Claims. FNS did not report improper payment rates of less than 10 percent for
the National School Lunch program (NSLP) and School Breakfast program (SBP). Also, FNS
did not report the amount of improper payments recovered for the Supplemental Nutrition
Assistance Program; the Special Supplemental Nutrition Program for Women, Infants, and
Children; the CACFP, the NSLP; and the SBP, in the agency’s financial report. Exhibit A
provides additional information regarding this noncompliance.

Management’s Responsibility for Internal Control and Compliance
FNS management is responsible for (1) evaluating the effectiveness of internal control over
financial reporting based on criteria established under the Federal Managers Financial Integrity
Act (FMFIA), (2) providing a statement of assurance on the overall effectiveness on internal
control over financial reporting, (3) ensuring FNS’ financial management systems are in
substantial compliance with FFMIA requirements, and (4) ensuring compliance with other
applicable laws and regulations.

Auditor’s Responsibilities
We are responsible for: (1) obtaining a sufficient understanding of internal control over financial
reporting to plan the audit, (2) testing whether FNS’ financial management systems substantially
comply with the FFMIA requirements referred to above, (3) testing compliance with certain
provisions of laws and regulations that have a direct and material effect on the financial
statements and applicable laws for which OMB Bulletin 14-02 requires testing, and (4) applying
certain limited procedures with respect to the RSI and all other information included with the
financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly established
by the FMFIA, such as those controls relevant to preparing statistical reports and ensuring
efficient operations. We limited our internal control testing to controls over financial reporting.
Because of inherent limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance, may nevertheless occur and not be detected. We also caution that projecting our
audit results to future periods is subject to risk that controls may become inadequate because of
changes in conditions or that the degree of compliance with controls may deteriorate. In
addition, we caution that our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to FNS. We limited our tests
of compliance to certain provisions of laws and regulations that have a direct and material effect
on the financial statements and those required by OMB Bulletin 14-02 that we deemed
applicable to FNS’ financial statements for the fiscal year ended September 30, 2013. We
caution that noncompliance with laws and regulations may occur and not be detected by these

4    AUDIT REPORT 27401-0003-21
tests and that such testing may not be sufficient for other purposes. Also, our work on FFMIA
would not necessarily disclose all instances of noncompliance with FFMIA requirements.

Purpose of the Report on Internal Control over Financial Reporting and the
Report on Compliance and Other Matters
The purpose of the “Report on Internal Control Over Financial Reporting” and the “Report on
Compliance and Other Matters” sections of this report is solely to describe the scope of our
testing of internal controls and compliance with applicable laws and regulations, and the result of
that testing. The purpose was not to provide an opinion on the effectiveness of FNS’ internal
controls or compliance with applicable laws and regulations. These reports are an integral part
of an audit performed in accordance with Government Auditing Standards in considering FNS’
internal controls and compliance. Accordingly, these reports are not suitable for any other
purpose.




Gil H. Harden
Assistant Inspector General
 for Audit
December 6, 2013




                                                              AUDIT REPORT 27401-0003-21         5
Abbreviations 
CACFP ........................ Child and Adult Care Food Program
FFMIA ........................ Federal Financial Management Improvement Act
FMFIA ........................ Federal Manager’s Financial Integrity Act
FNS ............................. Food and Nutrition Service
IPERA ......................... Improper Payment Elimination and Recovery Act of 2010
MD&A ........................ Management Discussion and Analysis
NSLP ........................... National School Lunch Program
OMB ........................... Office of Management and Budget
OIG ............................. Office of Inspector General
RSSI ............................ Required Supplementary Stewardship Information
SBP ............................. School Breakfast Program




6    AUDIT REPORT 27401-0003-21
Exhibit A: Status of Prior Year Noncompliance Finding 

Report 50024-0004-11, U.S. Department of Agriculture, Improper Payments Elimination and
Recovery Act of 2010 Compliance Review for Fiscal Year 2012, issued March 14, 2013.

Reported Noncompliance
In Report 50024-0004-11, U.S. Department of Agriculture, Fiscal Year 2012 Improper Payments
Elimination and Recovery Act of 2010 Compliance Review, issued March 14, 2013, the Office
of Inspector General (OIG) identified three instances of noncompliance with the requirements of
the Improper Payments Elimination and Recovery Act of 2010 (IPERA). Specifically, FNS did
not report a gross estimate of improper payments for one of two components related to the
CACFP, Family Day Care Homes Meal Claims. Also, FNS did not report improper payment
rates of less than 10 percent for the NSLP and SBP. Finally, FNS has not reported the amount of
improper payments they have recovered for the Supplemental Nutrition Assistance Program;
Special Supplemental Nutrition Program for Women, Infants, and Children; CACFP; NSLP; and
SBP.

FNS has developed a pilot methodology to estimate meal claim errors with parent recall surveys.
FNS is currently assessing the feasibility of using this approach nation-wide. FNS has not
established a date for publishing the CACFP claiming error estimate. Administration of the
NSLP and SBP is highly decentralized, including governmental and non-governmental entities.
FNS initiated a study of the Fiscal Year 2012 school year that they believe will show improved
improper payment rates versus the study from the 2005 school year. FNS stated in section 4 of
its MD&A that the current statute only provides authority to recover improper payments
identified through reviews, audits, or other operational oversight activity. FNS also stated that
an estimated recovery target amount for the SNAP is not feasible because claim collections are
tied to the ability of States to identify, pursue, and collect erroneous payments.




                                                             AUDIT REPORT 27401-0003-21         7
8   AUDIT REPORT 27401-0003-21
Exhibit B:  Agency Financial Report 




        FOOD AND NUTRITION SERVICE
          FISCAL YEARS 2013 and 2012
           FINANCIAL STATEMENTS
                PREPARED BY
        FOOD AND NUTRITION SERVICE




                                       AUDIT REPORT 27401-0003-21   9
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)


             MANAGEMENT DISCUSSION AND ANALYSIS

SECTION 1: MISSION, ORGANIZATIONAL STRUCTURE AND PROGRAMS

The Food and Nutrition Service (FNS) is an agency within the U.S. Department of Agriculture (USDA).
FNS was established August 8, 1969, by Secretary's Memorandum No. 1659 and Supplement 1 pursuant
to the authority contained in 5 U.S.C. 301 and Reorganization Plan No. 2 of 1953.

FNS is the Federal agency responsible for managing the domestic nutrition assistance programs.  Its 
mission is to increase food security and reduce hunger in partnership with cooperating organizations by 
providing children and low-income people access to food, a healthful diet, and nutrition education in a 
manner that supports American agriculture and inspires public confidence. 

The FNS annual appropriation for administrative funds includes a very small percentage of funds for the 
administration of the Center for Nutrition Policy and Promotion (CNPP).  CNPP links scientific research 
to the nutrition needs of consumers through science-based dietary guidance, nutrition policy coordination, 
and nutrition education.  CNPP develops integrated nutrition research, education, and promotion 
programs and provides science-based dietary guidance.   

FNS FY 2013 Organization Chart




                                                Page 1 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)


Descriptions of FNS Programs:
Over the past half-century – beginning with the National School Lunch Program in 1946 – the Nation has 
gradually built an array of nutrition assistance programs designed to help the most vulnerable populations 
meet their food needs.  Taken together, the current programs form a nationwide safety net supporting low-
income families and individuals in their efforts to escape food insecurity and hunger and achieve healthy, 
nutritious diets.  Currently, the programs administered by FNS touch the lives of one in five Americans 
over the course of a year. 

The nutrition assistance programs described below work both individually and in concert with one 
another to improve the Nation’s nutrition and health by improving the diets of children and low-income 
households.  

·   Supplemental Nutrition Assistance Program (SNAP):  Authorized by the Food and Nutrition Act of
    2008, SNAP serves as the primary source of nutrition assistance for over 44 million low-income 
    people.  It enables participants, about 49 percent of whom are children, to improve their diets by 
    increasing food purchasing power using benefits that are redeemed at authorized retail grocery stores 
    across the country.  State agencies are responsible for the administration of the program according to 
    national eligibility and benefit standards set by Federal law and regulations.  Benefits are 100 percent 
    Federally-financed, while administrative costs are shared between the Federal and State 
    Governments. 

    SNAP provides the basic nutrition assistance benefit for low-income people in the United States; 
    other FNS programs supplement this program with benefits targeted to special populations, dietary 
    needs and delivery settings.  (Puerto Rico, American  Samoa, and  the Commonwealth of the 
    Northern Mariana Islands  receive grant funds with which to provide food and nutrition assistance in 
    lieu of SNAP.) 

·   Food Distribution Program on Indian Reservations (FDPIR):  FDPIR distributes USDA-purchased 
    foods as an alternative to SNAP for Indian households on or near reservations.  State agencies and 
    Indian Tribal Organizations (ITOs) that operate the program are responsible for certifying recipient 
    eligibility, nutrition education, local warehousing and transportation of food, distribution of food to 
    recipient households, and program integrity.  The Federal Government pays 100 percent of the cost of 
    commodities distributed through the program, and cash payments for administrative expenses. 

·   Child Nutrition Programs (CNP):  The Child Nutrition Programs - National School Lunch (NSLP), 
    School Breakfast (SBP), Special Milk (SMP), Child and Adult Care Food (CACFP), and Summer 
    Food Service (SFSP) - provide reimbursement to State and local governments for nutritious meals 
    and snacks served to almost 32 million children in schools, child care institutions, adult day care 
    centers, and after school care programs.  FNS provides cash and USDA purchased food on a per-meal 
    basis to offset the cost of food service at the local level and a significant portion of State and local 
    administrative expense, and provides training, technical assistance, and nutrition education.  
    Payments are substantially higher for meals served free or at a reduced price to children from low-
    income families. 

 
·   Special Supplemental Nutrition Program for Women, Infants and Children (WIC):  WIC addresses the 
    supplemental nutritional needs of at-risk, low-income pregnant, breastfeeding and postpartum 

                                                 Page 2 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

    women, infants and children up to five years of age.  It provides participants monthly supplemental 
    food packages targeted to their dietary needs, breastfeeding support to nursing mothers, nutrition 
    education, and referrals to a range of health and social services – benefits that promote a healthy 
    pregnancy for mothers and a healthy start for their children.  Appropriated funds are provided to 
    States for food packages and nutrition services and administration for the program; States operate the 
    program pursuant to plans approved by FNS.  WIC is augmented in some localities by the Farmers’ 
    Market Nutrition Program, funded within the Commodity Assistance Program account, and 
    authorized by the WIC Farmers’ Market Nutrition Act of 1992, which provides fresh produce to WIC 
    participants. 

·   The Emergency Food Assistance Program (TEFAP):  This program supports the emergency food 
    organization network by distributing USDA-purchased food for use by emergency feeding 
    organizations including soup kitchens, food recovery organizations, and food banks.  TEFAP also 
    provides administrative funds to defray costs associated with processing, repackaging, storage, and 
    distribution of Federal and privately donated food.  The allocation of both Federal food and 
    administrative grants to States is based on a formula that considers the States’ unemployment levels 
    and the number of persons with income below the poverty level.  

·   The Commodity Supplemental Food Program (CSFP): This program provides foods purchased by 
    USDA to low-income infants and children up to age six, low-income pregnant and postpartum 
    women, and to low-income senior citizens.  In recent years, there has been a shift towards low-
    income elderly in this program; in FY 2011, elderly participation comprised almost 97 percent of total 
    participation.  Foods are distributed through State agencies to supplement food acquired by recipients 
    from other sources.  The CSFP is operated as a Federal/State partnership under agreements between 
    FNS and State health care, agricultural or education agencies.  In FY 2011, 39 States, the District of 
    Columbia, and two Indian reservations operate CSFP.  

·   Senior Farmers’ Market Nutrition Program (SFMNP):  This program provides coupons to low-
    income seniors that can be exchanged for fresh, nutritious, unprepared, locally grown fruits, 
    vegetables and herbs at farmers’ market, roadside stands, and community-supported agriculture 
    programs. 

·   Pacific Island and Disaster Assistance: Pacific Island Assistance includes assistance to the nuclear-
    affected zones of the Republic of the Marshall Islands in the form of USDA purchased food, or cash-
    in-lieu of food, and administrative funds and is authorized under the Compact of Free Association 
    Amendments Act of 2003, (P.L. 108-188).  Disaster relief funds are provided for use in non-
    Presidentially declared disasters.  

Federal nutrition assistance programs operate as partnerships between FNS and the State and local 
organizations that interact directly with program participants.  States voluntarily enter into agreements 
with the Federal Government to operate programs according to Federal standards in exchange for 
program funds that cover all benefit costs, and a significant portion of administrative expenses. 

Under these agreements, FNS is responsible for implementing statutory requirements that set national 
program standards for eligibility and benefits, providing Federal funding to State and local partners, and 
monitoring and evaluating to make sure that program structures and policies are properly implemented 
and effective in meeting program missions.  State and local organizations are responsible for delivering 
benefits efficiently, effectively, and in a manner consistent with national requirements. 


                                                 Page 3 of 64
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)


FNS Staff:
The public servants of FNS are an important resource for advancing the key outcomes sought through the
nutrition assistance programs. The agency staff serves to ensure and leverage the effective use of the
other program appropriations.
 FNS staff is funded primarily out of the Nutrition Programs Administration account, which represents 
approximately one-third of one percent of the total FNS budget.   The agency employment level 
represents less than two percent of the total employment within USDA and is similarly small in 
proportion to the total State-level staff needed to operate the programs.  The agency employs people from 
a variety of disciplines, including policy and management analysts, nutritionists, computer and 
communication experts, accountants, investigators, and program evaluators.  Because of the small size of 
the agency’s staff relative to the resources it manages, FNS has created clear and specific performance 
measures and must focus its management efforts in a limited number of high-priority areas. 
Program operations are managed through FNS’ seven regional offices and 27 field offices/satellite 
locations.  A regional administrator directs each regional office.  These offices maintain direct contact 
with State agencies that administer the FNS programs and conduct on-site management reviews of State 
operations. The Retailer Operations Division monitors the 244,710 stores as of June 30, 2013 authorized 
to redeem SNAP benefits. 
As of September 30, 2013, there were approximately 1,323 full-time permanent employees in the agency.  
There were 512 employees in the Washington headquarters office; and 811 in the field, which includes 
seven regional offices; 27 field/satellite offices; two SNAP compliance offices.  The chart below displays 
staff year utilization.


                                                                2012            2013          2014
        Project                                                 Actual         Estimate     Requested
        Supplemental Nutrition Assistance Program                    154              164           239
        Child Nutrition Programs                                     198              221           221
        Commodity Assistance                                            3               3             8
        Supplemental Nutrition Program -WIC                            28              30            35
        Nutrition Programs Administration                            899              974           974
        Center for Nutrition Policy and Promotion                      32              32            32
        Total Available                                            1,314            1,424        1,509




                                                Page 4 of 64
                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                           NOTES TO THE FINANCIAL STATEMENTS
                                          (Amounts shown are in Millions except as noted)




SECTION 2. PERFORMANCE GOALS, OBJECTIVES and
RESULTS
The FNS agency goals and objectives are fully integrated into USDA’s Strategic Goal 4 with three related 
Department Strategic objectives. Each Department Strategic Objective has a key outcome and indicator,
as discussed below.

USDA Strategic      USDA Strategic               Programs that
                                                                           Key Outcomes                Key Indicators
    Goal                Objective                 Contribute1
                  USDA Strategic
                                                                       Key Outcome 1:
                  Objective 4.1:             SNAP, CN, WIC,                                         Program Participation
                                                                       Reduce hunger and
                  Increase Access to         CAP, FDPIR, TEFAP                                      Rates
                                                                       improve nutrition.
                  Nutritious Food
USDA Goal 4:
                  USDA Strategic                                       Key Outcome 2:
Ensure That All
                  Objective 4.2:             SNAP, CN, WIC             Promote more healthful
of America’s                                                                                        Nutrition Guidance
                  Promote Healthy                                      eating and physical
Children Have                                      2                                                Distribution Volume
                  Diet and Physical          CNPP                      activity across the
Access to Safe,
                  Activity Behaviors                                   Nation.
Nutritious, and
                  USDA Strategic
Balanced Meals                                                         Key Outcome 3:
                  Objective 4.3:
                                             SNAP, CN, WIC             Maintain a high level of     SNAP Payment
                  Protect Public Health
                                                                       integrity in the nutrition   Accuracy Rate
                  by Ensuring Food is
                                                                       assistance programs.
                  Safe



STRATEGIC GOAL 4: ENSURE THAT ALL OF AMERICA’S CHILDREN
HAVE ACCESS TO SAFE, NUTRITIOUS, AND BALANCED MEALS

Nutrition is the link between agriculture and the Nation’s health, and the Department made strong
progress in advancing our nutrition and health goal in 2013. USDA’s leadership of the Federal nutrition 
assistance programs made a healthier diet available for millions of children and low-income families.  
And the cutting-edge nutrition promotion efforts of the Center for Nutrition Policy and Promotion 
harnessed interactive technologies to motivate all Americans to make positive dietary behavioral changes 
consistent with the Dietary Guidelines for Americans and the Healthier US initiative.  Key 2013 
accomplishments include: 

Promoting access to the Supplemental Nutrition Assistance Program (SNAP).  SNAP is the Nation’s 
   largest nutrition assistance program, serving 47.6 million people in June 2013.  The latest information 
   on the rate of participation among eligible people showed that in 2010, 75 percent of all who were 
   eligible participated, as compared with 54 percent in 2001. 

Promoting Nutrition Education by Using the MyPlate Food Guidance System.  MyPlate—a network 
   of nutrition education tools that translates the Dietary Guidelines for Americans into understandable 
   concepts for consumers—offers the American public an individualized approach to nutritional well-
   being and active living.  ChooseMyPlate.gov’s web-based educational tools help Americans assess 
   and personalize their diet and physical activity plans. The newest tool was the “MyPlate on Campus” 

1
  SNAP = Supplemental Nutrition Assistance Program (formerly the Food Stamp Program), CN=Child Nutrition (includes the
National School Lunch Program, the School Breakfast Program, and the Special Milk Program), WIC = Special Supplemental
Nutrition Program for Women, Infants & Children, CAP = Commodity Assistance Programs, FDPIR = Food Distribution
Program on Indian Reservations, TEFAP = The Emergency Food Assistance Program
2
  CNPP = Center for Nutrition Policy & Promotion (Partner agency to FNS within USDA)

                                                         Page 5 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

    to assist college and university students in adopting healthy lifestyles they can maintain during and
    beyond their college years. Consumers continue to respond enthusiastically to the on-line
    educational approach; thus, CNPP continues to develop new educational tools to promote nutrition
    education to specific population groups to help stem the trends in obesity and nutrition-related
    diseases.

    Continuing to ensure that SNAP benefits are accurately issued. The SNAP payment accuracy
    rate for FY 2012, announced in June 2013, was 96.58 percent, a new record-high that reflects
    effective partnerships with State administering agencies and extensive use of policy options to
    streamline program administration while improving access for working families.


In FY 2013, USDA continued to improve the quality of Americans’ diets through research-based nutrition
enhancements to the Nation’s food supply and better knowledge and education to promote healthier food 
choices.  In FY 2013, USDA pursued national policies and programs to ensure that everyone has access to 
a healthy diet regardless of income, and that the information is available to support and encourage good 
nutrition choices. 

USDA’s success in promoting public health through good nutrition and the effectiveness of its nutrition 
assistance education programs rely heavily on research. The research provides critical knowledge of what 
we need to eat to stay healthy and how that knowledge can be conveyed to the public in a manner that 
leads to true changes in our diets.  Research also supports development of new healthy and tasty food 
products providing another avenue for helping consumers eat well. 

STRATEGIC GOAL 4: ENSURE THAT ALL OF AMERICA’S CHILDREN HAVE ACCESS
TO SAFE, NUTRITIOUS AND BALANCED MEALS

OBJECTIVE 4.1: INCREASE ACCESS TO NUTRITIOUS FOODS
4.1.1 Participation levels for major Federal nutrition assistance programs: SNAP
       (Millions per month)

Overview

The Supplemental Nutrition Assistance Program (SNAP) is the foundation of America’s nutrition 
assistance program system.  SNAP provides benefits that can be used to purchase food at authorized 
retailers for preparation and consumption at home.  It makes resources that can be used for food available 
to most households with little income.  Benefit levels are based on the Thrifty Food Plan, a representative 
healthful and minimal cost meal plan that shows how a nutritious diet may be achieved with limited 
resources.  The amount received by a household depends on its income, expenses, and household size. 

 
 
 
 
 
 
 
 

                                                 Page 6 of 64
                                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                        NOTES TO THE FINANCIAL STATEMENTS
                                                      (Amounts shown are in Millions except as noted)




            Analysis of Results
            In FY 2013, the Department and its program delivery partners sustained effective access to SNAP.
            Average monthly participation reached 47.6 million in 2013 (Oct 2012-June 2013), within the range (43.6
            million-50.6 million) for the 2013 target of 47.1 million.

            Program participation increased by about 2.8 percent during the first eight months of FY 2013, compared
            with the same period in FY 2012. USDA’s efforts to support and encourage SNAP participation included:

            ·     Continued efforts with States to develop outreach strategies. Forty-six out of 53 State agencies–up
                  from 42 in FY 2009–now have formal outreach plans or other documented outreach activity; 
            ·     Supported innovative State practices to promote access by simplifying the application process. Thirty 
                  States use an Internet-based application filing system. A total of 47 States allow telephone interviews. 
                  A total of  30 States use call centers; 
            ·     Provided numerous strategies to help States manage workloads because of increasing participation 
                  and decreasing State resources due to the economic downturn. These strategies include policy 
                  waivers; a workload management matrix tool; a program access toolkit; and encouragement of broad-
                  based categorical eligibility (42 States) to improve access to applicants and simplify policies for State 
                  administration. 

            USDA also estimates the number of people eligible for the program along with the rate at which eligible 
            people are participating. The latest study shows that in 2010, 75 percent of all persons eligible for SNAP 
            participated. On average, 51 million individuals were eligible for benefits each month in 2010, and 38 
            million received them. While the program served 75 percent of all eligible individuals, the program 
            provided 94 percent of the benefits that all eligible individuals could receive. This is because the neediest 
            individuals eligible for higher benefits participated at higher rates than did other eligible persons. These 
            numbers indicate that the program is effectively reaching those most in need. 


 Annual Performance Goals, Indicators                 2008        2009        2010          2011           2012                 Fiscal Year 2013
             and Trends                                                                                                Target      Actual        Result
4.1.1 Participation levels for the major Federal       28.4      33.5        40.3          44.3            46.3       47.1         47.6         Met
       nutrition assistance programs (millions
       per month): Supplemental Nutrition
       Assistance Program Avg.(Monthly)
       participation (millions)
              Rationale for Met Range: Thresholds for 4.1.1 reflect the margin of error in forecasts of future participation. For Supplemental Nutrition
              Assistance Program (SNAP) participation, results from 2 independent assessments suggest that predictions of the number of SNAP
              participants are accurate to within plus-or-minus 7.5 percent on average.
               For 2013, this percentage thus allows for actual performance that meets the target range of 43.6-50.6 million for SNAP.
                Data Assessment of Performance Measure 4.1.1
                SNAP participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to
                regional offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to
                the National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office
                personnel reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at FNS. If data are
                reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, the FNS works with regional
                offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
                reliable as possible.
                   Completeness of Data—Final figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly

                                                                      Page 7 of 64
                                            FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                 NOTES TO THE FINANCIAL STATEMENTS
                                               (Amounts shown are in Millions except as noted)


Annual Performance Goals, Indicators            2008       2009        2010          2011           2012                Fiscal Year 2013
            and Trends                                                                                         Target      Actual        Result
          before being declared annual data. Reported estimates are based on data through June 30, 2013, as available September 2013.
            Reliability of Data—Participation-data reporting is used to support program financial operations. All of the data are used in published
          analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
          Office, the Office of Inspector General, and the Office of Management and Budget.
            Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and
          outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


        Challenges for the Future

        Studies and analyses show that one reason that SNAP-eligible people do not participate is that they may
        not be aware of their eligibility. Efforts to improve access to and promote awareness of SNAP, and seek
        improvements in policy and operations that make applying easier, are ongoing challenges.

        The quality of program delivery by third parties—hundreds of thousands of State and local Government
        workers and their cooperators—is critical to USDA’s efforts to reduce hunger and improve nutrition. 
        Proper program administration, including timely determination of eligibility, is of special concern. 

        4.1.2 Improve SNAP payment accuracy
        Overview

        Ensuring that SNAP and other Federal nutrition assistance programs are administered with integrity is 
        central to USDA’s mission. Waste and abuse draw scarce resources away from those who need them the 
        most. Just as important, the programs are ultimately not sustainable without public confidence that 
        benefits go to those who qualify, are used appropriately, and achieve their intended purposes. The 
        Department seeks to increase food security and reduce hunger in a manner that inspires public confidence 
        that taxpayer dollars are used wisely. 

        Designed to respond to economic conditions, participation in the program has recently grown and benefits 
        have increased, yet USDA remains strongly committed to program integrity. The Department takes its 
        stewardship responsibilities for taxpayer dollars seriously through an established Quality Control (QC) 
        system and long-standing support for payment accuracy initiatives. The Department continually works to 
        improve payment accuracy through partnerships with States and regulatory and statutory requirements for 
        a system that rewards exemplary program performance while holding low-performing States accountable. 
        It also uses an early detection system to target States that may be experiencing a higher incidence of 
        errors based on preliminary QC data. Actions then are taken by regional offices to address these situations 
        in the individual States. 

        Analysis of Results

        SNAP payment accuracy reached a record-high 96.58 percent in 2012, the latest for which data are 
        available. The number reflects the excellent performance by State agencies in administering the program. 
        This combined rate reflects 2.77 percent in overpayments and .65 percent in underpayments for a total of 
        3.42 in erroneous payments. 




                                                               Page 8 of 64
                                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                        NOTES TO THE FINANCIAL STATEMENTS
                                                       (Amounts shown are in Millions except as noted)

          Forty-six States had a payment accuracy rate greater than 94 percent, including 32 States with rates
          greater than 96 percent. This is two more States with 94 percent accuracy and three more States with 96
          percent accuracy from the previous year.


 Annual Performance Goals, Indicators                   2008       2009        2010          2011        2012               Fiscal Year 2013
             and Trends                                                                                              Target          Actual    Result
4.1.2   Improve SNAP Payment Accuracy Rate             94.3%      94.9%       96.19%         96.2%       96.58%       96.58%       Not         Deferred
        Baseline: 2001 = 91.34%                                                                                                  Available
             FY 2013 data will be available in 2014.
             Rationale for Met Range: The 95.0 percent confidence interval around the estimate of payment accuracy is ±.20.
             · For 2013, this confidence level allows for actual performance that meets the target in the range 95.9–96.5 percent.
             Data Assessment of Performance Measure 4.1.2
             The Supplemental Nutrition Assistance Program (SNAP), formerly the Food Stamp Program, uses annual payment accuracy data from the
             Quality Control (QC) process to support SNAP management. The data are based upon statistically valid methodology. The QC process
             uses a systematic random sampling of SNAP participants to determine a combined payment error rate for each State. The combined error
             rate is composed of over-issuances and under-issuances of SNAP benefits. A regression formula is applied to the results of the reviews to
             calculate official error rates. State agencies review selected cases monthly to determine the accuracy of the eligibility and benefit-level
             determination. The process includes a client interview and verification of all elements of eligibility and the basis of issuance. Federal
             reviewers validate a sample of the State’s reviews by conducting a re-review. The process has proven to be a sound method of calculating
             reliable data.
                Completeness of Data—The most current data available for this measure are for FY 2012. The payment accuracy rate of 96.58 percent
             met the performance goal/measure target. FY 2013 performance will be deferred until next year’s report.
                Reliability of Data—QC data are valid and accepted by State SNAP agencies as a basis for performance-incentive payments and 
             penalties. The U.S. Government Accountability Office and the Office of Inspector General also use the data regularly. 
                Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and 
             outside USDA.  The measure itself is frequently cited as an important, high-quality indicator of program performance. 




          Challenges for the Future
          The most critical challenge impacting future success is continuing resource limitations for State agencies.
          State budgets have been and will continue to be extremely tight. This factor could hurt State performance
          in payment accuracy. USDA will continue to provide technical assistance and support to maintain
          payment accuracy in the context of this difficult program environment.



          4.1.3 Participation levels for the major Federal nutrition assistance programs
                           (millions per day)
          Overview
          The National School Lunch Program (NSLP) and the School Breakfast Program (SBP) support schools in
          ensuring access to nutritious food for the children they serve. The programs provide per-meal
          reimbursement to State and local Governments for meals and snacks served. All meals must meet Federal
          nutrition standards to qualify for reimbursement.




                                                                      Page 9 of 64
                                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                      NOTES TO THE FINANCIAL STATEMENTS
                                                     (Amounts shown are in Millions except as noted)




           In FY 2013, NSLP serves lunches and snacks in more than 100,447 schools and residential child-care
           facilities. About 70 percent of meals are served to low-income children for free or at reduced price.

           SBP helps schoolchildren start the day ready to learn by serving breakfast in more than 89,244 schools
           and residential child-care facilities. Nearly 85 percent of meals are served free or at reduced price to low-
           income children.


           Analysis of Results
           In FY 2013, USDA and its program delivery partners sustained effective access to school meals. The
           increased use of direct certification for free school meals for children enrolled in means-tested programs
           such as SNAP or the Temporary Assistance for Needy Families (TANF) program has helped to provide
           easy access to school meal benefits. During the 2011-12 school year, 89 percent of school districts used
           direct certification to enroll 11.6 million children in the lunch program – 1.7 million more than in the
           previous year. TANF provides financial assistance for children and their parents or relatives who are
           living with them.

           NSLP participation levels reached 30.6 million in FY 2013 within the Met range (30.1 million-33.3
           million) for the 2013 target of 31.7 million. Participation in the SBP increased by about 2 percent from
           FY 2012 to FY 2013, continuing the trend of increases in recent years. Average SBP participation levels
           reached 13.1 million in FY 2013 within the Met range (12.7 million – 14.1 million) for the 2013 target of
           13.4 million.


 Annual Performance Goals, Indicators                 2008       2009         2010          2011           2012                Fiscal Year 2013
             and Trends                                                                                                 Target       Actual        Result
4.1.3   Participation levels for the major Federal
       nutrition assistance programs (millions
       per day)
·   National School Lunch Program                      30.9        31.6        31.7          31.8           32.0           31.7         30.6          Met
·   School Breakfast Program                           10.6        11.0        11.7          12.1           12.8           13.4         13.1          Met
               Rationale for Met Range: Thresholds for 4.1.3 reflect the margin of error in forecasts of future participation, estimated at 5 percent for
               school meals programs. This reflects the pattern of variance between actual and target performance for both programs during the past 5
               years. For FY 2013, this percentage range allows for actual performance that meets the targets in the range of 30.1-33.3 million for the
               National School Lunch Program and 12.7-14.1 million for the School Breakfast Program.
              Data Assessment of Performance Measure 4.1.3
              School meals participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to
              regional offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to
              the National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office
              personnel reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data
              are reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional
              offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
              reliable as possible.
                 Completeness of Data— Figures for NSLP and SBP are based on 9-month (school year) averages. Participation data are collected and
              validated monthly before being declared annual data. Reported estimates are based on data through June 30, 2013, as available September
              2013.
                 Reliability of Data— Participation-data reporting is used to support program financial operations. All of the data are used in published
              analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
              Office, the Office of Inspector General, and the Office of Management and Budget.

                                                                   Page 10 of 64
                                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                      NOTES TO THE FINANCIAL STATEMENTS
                                                     (Amounts shown are in Millions except as noted)


 Annual Performance Goals, Indicators                 2008       2009         2010          2011            2012                 Fiscal Year 2013
             and Trends                                                                                                 Target        Actual       Result
                Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
              outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


           Challenges for the Future

           While almost all schoolchildren have access to Federally-subsidized school lunches, significantly fewer
           schools operate School Breakfast Programs. USDA will continue to pursue strategies to ensure that all
           students are able to start the day with a nutritious breakfast, at home or at school.

           As with other nutrition assistance programs, the Department relies on its partnerships with third parties—
           hundreds of thousands of State and local Government workers and their cooperators—to sustain effective 
           school meals program delivery. 

           4.1.4 Participation levels for the major Federal nutrition assistance programs
                            (millions per month) WIC program average

           Overview

           The Special Supplemental Nutrition Program for Women, Infants and Children (WIC) is a critical 
           component of the nutrition assistance safety net. WIC’s major objective is to address the nutrition needs 
           of low-income pregnant, breastfeeding, and postpartum women, infants, and children up to 5 years of age 
           who are found to be at nutritional risk. 


           Analysis of Results

           In FY 2013, average monthly WIC participation was approximately 8.6 million participants within the 
           Met range (8.6 million-9.2 million) for the target of 8.9 million. USDA continued to meet its ongoing 
           commitment to provide sufficient program resources to support participation for all eligible people who 
           apply for benefits. 

           The Department also estimates the number of people eligible for WIC and calculates the rate at which 
           eligible people are participating. The latest study shows that, in 2010, WIC served an estimated 62.6 
           percent of the population eligible for benefits. This figure reflects participation by almost 85 percent of 
           eligible infants, almost 71 percent of eligible pregnant women, more than 85 percent of eligible 
           breastfeeding women, and almost 81 percent of eligible postpartum women. 


 Annual Performance Goals, Indicators                 2008       2009         2010          2011            2012                 Fiscal Year 2013
             and Trends
                                                                                                                        Target        Actual       Result
4.1.4   Participation levels for the major Federal     8.7        9.1          9.2           8.9             8.9           8.9          8.6          Met
        nutrition assistance programs (millions
        per month): WIC Program (average)
              Rationale for Met Range: Thresholds for 4.1.4 reflect the margin of error in forecast of future participation, estimated at 3 percent for the
              WIC program. This reflects the pattern of variance between actual and target performance over the past 5 years.

                                                                   Page 11 of 64
                                            FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                 NOTES TO THE FINANCIAL STATEMENTS
                                               (Amounts shown are in Millions except as noted)


Annual Performance Goals, Indicators             2008       2009        2010          2011            2012               Fiscal Year 2013
            and Trends                                                                                            Target       Actual      Result
          For FY 2013, this percentage thus allows for actual performance that meets the target in the range of 8.6-9.2 million for WIC.
          Data Assessment of Performance Measure 4.1.4
          WIC participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional
          offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the
          National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel
          reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are
          reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional
          offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
          reliable as possible.
             Completeness of Data—Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly before
          being declared annual data. Reported estimates are based on data through June 30, 2013, as available September 2013.
             Reliability of Data—Participation-data reporting is used to support program financial operations. All of the data are used in published
          analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
          Office, the Office of Inspector General, and the Office of Management and Budget.
             Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and
          outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


        Challenges for the Future

        Ensuring that adequate, timely funding is available to USDA’s program partners to support participation 
        among all eligible applicants is an ongoing challenge. The Department and its partners must continue to
        work together to manage funds carefully and maintain efficient operations to serve all those in need.

        OBJECTIVE 4.2: PROMOTE HEALTHY DIET AND PHYSICAL ACTIVITY BEHAVIOR
        4.2.1 Application and usage level of nutritional guidance tools

        Linking science-based information to the needs of consumers through effective translation is an important
        pillar in policy development and implementation. The Department designed, developed, and
        implemented the MyPlate food icon, which is supported by a multi-modal, comprehensive
        communications program to make the 2010 Dietary Guidelines for Americans available and operational
        for all Americans, (including children) to achieve healthy diets and lifestyles. The ChooseMyPlate.gov
        website and its wealth of resources, including the dietary assessment online tool, SuperTracker, promote
        the personalized application of the Guidelines to empower all consumers to make better food choices
        balanced with adequate exercise. In FY 2012, the Department released the new SuperTracker and
        consumer materials, located at www.ChooseMyPlate.gov, to help Americans attain healthy diets and
        active lifestyles.


        Overview

        Good nutrition and regular physical activity are important throughout the life cycle and can help reduce
        the rate of overweight and obesity in the U.S. population, especially among the Nation’s children.  Both 
        good nutrition and physical activity are also essential to helping prevent diet-related chronic diseases,
        such as diabetes, cardiovascular disease, and high blood pressure. Thus, both achieving and sustaining
        appropriate body weight across the lifespan are vital to maintaining good health and quality of life.



                                                              Page 12 of 64
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                   NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

The Department establishes the Dietary Guidelines for Americans jointly with the Department of Health
and Human Services (DHHS) to form the basis of Federal nutrition policy, education, outreach, and of
food assistance programs. (The Dietary Guidelines are available at www.dietaryguidelines.gov.) The
Department uses electronic tools, print materials, and other resources to communicate the importance of
healthy eating and physical activity to consumers. The MyPlate icon and guidance materials and tools at
www.ChooseMyPlate.gov are important means by which the Department helps empower the American
public with actionable information to make healthy food choices and to achieve healthy and active
lifestyles. The Department continues also to encourage “information multipliers”—community and 
national strategic partners—to extend the reach and impact of nutrition guidance messages, both with 
Federal nutrition assistance programs and with the general public. 

The Department is committed to using Federal nutrition policy and information—both based on the most 
recent, credible science—to encourage the U.S. population to develop and maintain healthy diets and 
active lifestyles that benefit each individual, each family, and the Nation. As the Secretary said at the 
December 2011 release of the SuperTracker, “Overcoming the health and nutrition challenges we face as 
a nation is critical, and the SuperTracker provides consumers with an assortment of tools to do just that. 
This easy-to-use website [ChooseMyPlate.gov] will help Americans at all stages of life improve their 
overall health and well-being as they input dietary and physical activity choices into the tool.”  

Other key FY 2012 accomplishments include the following: 
   · The Department released the new SuperTracker located at www.ChooseMyPlate.gov.  The 
        SuperTracker consists of a suite of dietary assessment, weight management, and physical tracking 
        tools designed to help Americans by empowering them with means to make healthier choices and 
        develop healthy dietary habits and lifestyles. 
   · The Department implemented a communications calendar of selected messages, based on the 
        2010 Dietary Guidelines for Americans, to encourage healthy food and dietary behaviors. The 
        messages released in FY 2012 were “Enjoy your food but eat less,” “Make half your plate fruits 
        and vegetables,” “Drink water instead of sugary drinks,” and “Make at least half your grains 
        whole grains.”   
   · The Department continues to build its Nutrition Evidence Library by conducting evidence-based 
        systematic reviews to evaluate scientific evidence to answer precise nutrition policy and nutrition 
        education questions or series of questions.   
    · The USDA continues to collaborate with partners to increase all communication of guidance 
        messages related to the diet and physical activity.  The USDA/CNPP Nutrition Communicators 
        Network provides an opportunity for different communities and  organizations to join together in 
        helping promote the Dietary Guidelines for Americans. The Nutrition Communicators Network 
        includes over 6,000 community partners and 100 strategic (national) partners.  


Analysis of Results

In FY 2013, the application and usage level of nutrition guidance tools reached 9.9 billion pieces of 
electronic and print materials distributed.  The Department exceeded its goal of 4 billion pieces. USDA 
continued to meet its commitment to link science-based information to the nutrition needs of Americans 
across the lifecycle.  The Department successfully reached Americans with print materials and electronic 
tools; the Department used social media and partnerships, as well as ChooseMyPlate.gov, 
nutritionevidencelibrary.gov, and the Food and Nutrition Information center to provide information that 
consumers can use to improve their diets and maintain active lifestyles. The diet assessment tool, the 

                                                Page 13 of 64
                                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                       NOTES TO THE FINANCIAL STATEMENTS
                                                     (Amounts shown are in Millions except as noted)


           SuperTracker, was enhanced with “My Foods,” “My Recipe,” and an expanded foods database. Myplate
           on Facebook was launched and grew to more than 13,000 followers and an engagement reach of more
           than 615,000. The 10 Tips nutrition education series continued to be one of the most popular resources at
           ChooseMyPlate.gov, with downloads totaling 4,293,573. In addition, the MyPlate Kids Place was
           disseminated as part of the “Back-to-School” promotional effort, and the Nutrition Communicators 
           Network grew to 112 National Strategic Partners and more than 7,000 Community Partners. This network 
           is designed to empower and mobilize message multipliers to promote Myplate and consumer messages 
           derived from Dietary Guidelines for Americans. 

            
            
            
 Annual Performance Goals, Indicators                 2008       2009        2010          2011           2012                Fiscal Year 2013
             and Trends                                                                                                Target       Actual       Result
4.2.1   Application and usage level of nutrition          3.2        3.5          1.7           1.7            6.6         4.0    9.9      Exceeded
        guidance tools(billions of pieces of
        nutrition guidance distributed) Baseline
        2006 = 1.5
               Rationale for Met Range: The precision of USDA’s tracking system and forecasting allows for determination of the degree to which the 
               2013 target range of 3.6 to 4.4 billion is met. Thresholds reflect trends of usage levels at ChooseMyPlate.gov,
               www.nutritionevidencelibrary.gov, other USDA websites such as SNAP-ED Connection, as well as the distribution of MyPlate and
               Dietary Guidelines print materials.
               Data Assessment of Performance Measure 4.2.1
               Data on the application and usage level of nutrition guidance tools are drawn from electronic records associated with ChooseMyPlate.gov,
               nutritionevidencelibary.gov, the Food and Nutrition Information Center (FNIC) at the National Agricultural Library and from inventory
               records of print materials.
                  Completeness of Data—Data related to ChooseMyPlate.gov are collected instantaneously, indicating the number of e-hits to the Web
               site and the number of registrations to the SuperTracker. For print materials, data from national headquarters represent counts of what was
               distributed among divisions of FNS and by the FNIC.
                  Reliability of Data—The electronic data are instantaneously recorded and the number of distributed print materials is tracked.
                  Quality of Data—The data report on the use of information and tools at ChooseMyPlate.gov and nutritionevidencelibrary.gov. Because
               of the simultaneous recording of data, the Department is able to estimate accurately the degree to which consumers are using or requesting
               nutrition materials at ChooseMyPlate.gov, nutritionevidencelibary.gov, and other Department websites that provide materials related to the
               2010 Dietary Guidelines for Americans.




           Challenges for the Future

           Individuals and families make choices every day about what they will eat and drink and how physically 
           active they will be. Today, Americans must make these choices within an environment that promotes 
           overconsumption of calories and discourages physical activity. The ability of existing nutrition guidance 
           and promotional materials to achieve behavior change remains challenging. Physical activity and other 
           lifestyle issues also significantly impact body weight and health. 

           Crafting understandable, science-based, consistent, and consumer-friendly nutrition messages and 
           nutrition education programs in ways that promote positive behavioral change to help people make better 

                                                                   Page 14 of 64
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)

food choices will continue to be challenging. The relationships between choices people make and their
attitudes towards and knowledge of diet/health links are key factors that must be addressed. The data that
can address this information gap, however, are limited. Work is planned to develop helpful metrics to
measure the success of communications and promotion programs.


SECTION 3. ANALYSIS OF SYSTEMS, CONTROLS, AND
LEGAL COMPLIANCE
The information in this section is consistent with the findings of the USDA OIG’s FY 2013 financial
statements audit report.

Federal Managers’ Financial Integrity Act (FMFIA) Assurance
Management is responsible for developing and maintaining internal controls to ensure the effectiveness of
operations, reliability of reporting, compliance with applicable laws and regulations and safeguarding of
assets. Internal control encompasses accounting and administrative controls. Such controls include
program, operational and administrative areas as well as accounting and financial management.

FNS has conducted its assessment of internal control and financial systems pursuant to Sections 2 and 4
of FMFIA, for the period ending September 30, 2013. Based on the results of this evaluation, FNS can
provide reasonable assurance that internal controls are operating effectively. For FY 2012, FNS had no
existing material weaknesses or significant deficiencies on which to report. No new material weaknesses
or significant deficiencies were identified for FY 2013.


Federal Financial Management Improvement Act (FFMIA)
Assurance
FNS has evaluated its financial management systems under FFMIA for the period ended September 30,
2013. Based on the result of our evaluation, the agency is in substantial compliance with the FFMIA for
the following sections:

        1.      Federal Financial Management System Requirements,
        2.      Applicable Federal Accounting Standards,
        3.      Standard General Ledger at the Transaction Level, and
        4.      Information Security, Policies, Procedures, and Practices


Assurance for Internal Control over Financial Reporting
FNS conducted its assessment of the effectiveness of internal control over financial reporting as of June
30, 2013, in accordance with USDA’s Implementation Guide and as required by the Office of
Management and Budget Circular A-123, Appendix A.

This assessment included an evaluation of entity level controls, risk assessments, process descriptions and
flowcharts, documentation of key controls, an assessment of the design of key controls, tests of


                                               Page 15 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

effectiveness of properly designed controls, summary of deficiencies and the development of corrective
action plans for control deficiencies. Key controls in the following cycles/processes were tested:

  Processes

  a.   Collections
  b.   SF-224 Reconciliations
  c.   Fund Balance with Treasury Reconciliation
  d.   Reimbursable Agreements – Accounts Payable
  e.   Reimbursable Agreements – Accounts Receivable
  f.   Awards – Entitlements
  g.   Draws and Expenditures – Entitlements
  h.   Closeouts – Entitlements
  i.   Awards – Discretionary Grants
  j.   Draws and Expenditures – Discretionary Grants
  k.   Closeouts – Discretionary Grants
  l.   Monitoring – Financial Reporting
  m.   User Access and GL Maintenance
  n.   Period End Reporting
  o.   Significant Management Estimates
  p.   Budgetary Authority and Reporting
  q.   Transfers
  r.   Obligations/Un-liquidated Obligations

Management recognizes its responsibility for monitoring and correcting all control deficiencies. With
regard to these cycles and the internal controls within these cycles, management certifies that there have
been no changes in the operations of controls tested from the sample selection date through
June 30, 2013. FNS provides reasonable assurance that the internal controls, financial processes and
financial systems are adequate to insure the accuracy of financial reporting for FY 2013.

 FNS has identified control deficiencies in the General Computer Controls (GCC) access control family
that were elevated by the Department as material weaknesses. Corrective action plans have been
submitted in the OCFO’s A-123 Document Tracking System (ADTS) for the identified control
deficiency.

Disaster Relief Appropriations Act

FNS has established appropriate policies and controls, and corrective actions have been taken to mitigate
the risk of fraud and inappropriate spending practices regarding activities and expenses related to
Hurricane Sandy and other disaster-related activities for The Emergency Food Assistance Program
(TEFAP). Management has not identified additional significant risk associated with management or
payment of Disaster Relief Act funds.

In conclusion, FNS continues to struggle with diminishing staff resources. Any future reductions in
FNS resources, any increases in responsibilities or change in program design without compensating
Administrative resources increases may compromise the gains we have achieved in the areas of
program integrity and FNS’ ability to adequately execute internal controls already put in place or to
develop any additional controls that may be needed in the future.



                                                Page 16 of 64
                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                      NOTES TO THE FINANCIAL STATEMENTS
                                    (Amounts shown are in Millions except as noted)




OIG Audit Handling Process and Performance

USDA’s Office of the Inspector General (OIG) performs audits of FNS programs, systems and 
operations. The results of this work are reports detailing, at a minimum, what was examined, findings that
should be addressed and recommendations for changes/improvements. Upon release of each final report,
FNS submits to OIG a written corrective action plan listing actions planned and dates by which these
actions will occur. Management decision is reached when OIG accepts FNS’s proposed corrective 
actions.

Upon reaching management decision, FNS’s Financial Management organization oversees follow-up 
activities to assure that planned actions for each recommendation are implemented and completed. As this 
occurs, FNS notifies the Department’s Office of the Chief Financial Officer (OCFO) and requests 
concurrence that all actions described in the management decision agreement have occurred.  Final action 
is achieved for each finding/recommendation when all actions necessary to fulfill the management 
decision agreement have been performed. 

Delays in reaching Final Action status most often occur for two categories of reasons: 

    o   The amount of time needed to complete certain activities cannot be accurately estimated. 
        Examples of these are: 
        · Specific legislation, policy or guidance needs to be developed;
        · An investigation, negotiation, or administrative appeal action must be completed;
        · An automated system needs to be developed, implemented, or enhanced;
        · The results of additional monitoring or program review activity must be completed;
        · Disallowed costs must be collected; 
        · Legal advice or opinion from the Office of General Counsel is needed; or 
        · Certain external (state) or administrative actions must occur. 

    o   Changes that could not be anticipated at the time management decision was reached: 
        · A change must be made to the management decision agreement.  For example, the agreed 
           upon management decision calls on the Agency to publish a regulation, but Congress initiates 
           a moratorium on regulations.
        · Additional information, explanation, advice or action from OIG is needed.

USDA agencies submit quarterly progress reports to OCFO for all audits that remain open more than one 
year past the management decision date. These interim reports show incremental progress toward 
completion of planned actions, changes in planned actions, actual or revised completion dates, and 
explanations for revised dates. 

 
                   Audits Without Final Action More Than One Year Past the Management Decision Date

Audit Number       Date Issued             Audit Title                     Completion Date       Reason for Lack of Final
                                                                           For Actions (Est.)     Action
27099-49-TE        9-4-07        Food and Nutrition Service                   5-31-14           Proposed rule pending
                                 Disaster Supplemental Nutrition                                publication.


                                                  Page 17 of 64
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)

                                Assistance Program for Hurricanes
                                Katrina and Rita
27601-16-AT        3-31-08      Food Stamp Employment and                    1-31-14    Proposed rule pending
                                Training Program                                        publication.
27601-12-SF       11-18-11      Review of Management Controls                6-30-14    Pending publication of
                                for the Child and Adult Care Food                       final regulation;
                                Program                                                 completion of new web-
                                                                                        based system: and
                                                                                        completion of OIG
                                                                                        investigation.
27099-01-DA        1-31-12      Identifying Areas of Risk in the            10-31-13    Pending release of State
                                Child and Adult Care Food                               Monitoring Handbook.
                                Program (CACFP) Using
                                Automated Data Analysis Tools
27002-0010-         6-4-12      Analysis of New York’s                      11-30-13    Pending receipt of
13                              Supplemental Nutrition Assistance                       supporting documentation
                                Program (SNAP) Eligibility Data                         for corrective action.




The Inspector General Act Amendments of 1988 requires an annual report on the status of audits. In compliance
with this Act the below table reflects FNS audits that were closed during FY 2013.



       Auditor    Auditee       Audit Reference             Audit Name                            Status
                                Number

1      OIG        FNS           27099-34-SF                 Summer Food Service Program           CLOSED –Feb
                                                            California and Nevada                 2013
2      OIG        FNS           27703-01-HQ                 ARRA National School Lunch            CLOSED –Feb 
                                                            Program (NSLP) Equipment Grants,      2013 
                                                            Phase I and II
3      OIG        FNS           27033-02-AT                 FNS Recovery Act Impacts on the       CLOSED –Sept  
                                                            SNAP-Phase I                          2013 
4      OIG        FNS           27033-03-AT                 Review of the Food and Nutrition      CLOSED –Aug 
                                                            Service’s Controls Over the           2013 
                                                            Emergency Food Assistance 
                                                            Program (TEFAP)  Phase II  
5      OIG        FNS           27033-02-HY                 State Fraud Detection Efforts for     CLOSED –Apr 
                                                            SNAP                                  2013 
6      OIG        FNS           27022-1-DA                  Analysis of the SNAP ALERT            CLOSED –Feb 
                                                            Database                              2013 
7      OIG        FNS           27002-0001-13               Analysis of Kansas’ Supplemental      CLOSED –Aug 
                                                            Nutrition Assistance Program          2013 
                                                            (SNAP) Eligibility Data 
8      OIG        FNS           27002-0002-13               Analysis of Florida’s Supplemental    CLOSED –Aug 
                                                            Nutrition Assistance Program          2013 
                                                            (SNAP) Eligibility Data 
9      OIG        FNS           27002-0003-13               Analysis of Louisiana’s               CLOSED –Sept 
                                                            Supplemental Nutrition Assistance     2013 
                                                            Program (SNAP) Eligibility Data 
10     OIG        FNS           27002-0004-13               Analysis of Alabama’s                 CLOSED –Aug 
                                                            Supplemental Nutrition Assistance     2013 

                                                 Page 18 of 64
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)

                                                         Program (SNAP) Eligibility Data
11    OIG       FNS          27002-0005-13               Analysis of Mississippi’s             CLOSED –Aug
                                                         Supplemental Nutrition Assistance     2013
                                                         Program (SNAP) Eligibility Data
12    OIG       FNS          27002-0006-13               Analysis of Texas’ Supplemental       CLOSED –Aug
                                                         Nutrition Assistance Program          2013
                                                         (SNAP) Eligibility Data
13    OIG       FNS          27002-0007-13               Analysis of Missouri’s                CLOSED –Feb
                                                         Supplemental Nutrition Assistance     2013
                                                         Program (SNAP) Eligibility Data
14    OIG       FNS          27002-0008-13               Analysis of Massachusetts’            CLOSED –Aug
                                                         Supplemental Nutrition Assistance     2013
                                                         Program (SNAP) Eligibility Data
15    OIG       FNS          27002-0009-13               Analysis of New Jersey’s              CLOSED –Sept
                                                         Supplemental Nutrition Assistance     2013
                                                         Program (SNAP) Eligibility Data
16    OIG       FNS          27703-0002-22               Recovery Act Performance              CLOSED –
                                                         Measures for the Supplemental         April 2013
                                                         Nutrition Assistance Program
                                                         (SNAP)
17    GAO       USDA/FNS     GAO-09-814                  School Meal Programs: Improved        CLOSED –May
                Lead                                     Reviews, Federal Guidance, and        2013
                                                         Data Collection Needed to Address
                                                         Counting and Claiming Errors
18    GAO       USDA/FNS     GAO-09-649                  School Meal Programs: Changes to      CLOSED –May
                Lead                                     Federal Agencies’ Procedures Could    2013
                                                         Reduce Risks of School Children
                                                         Consuming Recalled Food
19    GAO       USDA/FNS     GAO-12-647                  TRANSPORTATION-                       CLOSED –Oct
                Lead                                     DISADVANTAGED                         2012
                                                         POPULATIONS: Federal
                                                         Coordination Efforts Could Be
                                                         Further Strengthened
20    GAO       USDA/FNS     GAO-13-106                  Federal Barriers to Data Sharing      CLOSED –Aug
                Lead                                     among Human Services Programs         2013
21    GAO       USDA/FNS     GAO-13-106                  Federal Agencies’ Use of Program      CLOSED –June
                Lead                                     Evaluations                           2013



Assurance for Legal Compliance
The Office of the Inspector General (OIG) found that FNS did not fully comply with three of seven
Improper Payment Elimination and Recovery Act (IPERA) requirements. FNS did not always report
estimates for high-risk programs, meet annual reduction targets, and report error rates below specific
thresholds. Below is a summary of the noncompliance and FNS’ accomplishments with planned actions
for becoming compliant with IPERA.




                                              Page 19 of 64
                                     FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                          NOTES TO THE FINANCIAL STATEMENTS
                                        (Amounts shown are in Millions except as noted)




                                   Outstanding Initiatives to Achieve Compliance
                                                                    Section of                                   Target
                      Initiative                                  Non-compliance                Agency        Completion Date
Improper Payments Elimination and Recovery             Published improper payment                 FNS             9/30/2015
Act of 2010 (IPERA)                                    estimates for all high-risk programs
                                                       and activities.
                                                       Published, and has met, annual             FNS             9/30/2014
                                                       reduction targets for each program
                                                       assessed to be at risk and
                                                       measured for improper payments.
                                                       Reported a gross improper payment          FNS             9/30/2020
                                                       rate of less than 10 percent for each
                                                       program and activity for which an
                                                       improper payment estimate was
                                                       obtained and published in the PAR
                                                       or AFR.
 .




Improper          IPERA                                           Overall Estimated Completion Date     FY 2017
Payment
Elimination and                                         IPERA non-compliance issues. (FNS)
Recovery Act
of 2010 (IPERA)
FY 2013 Accomplishments:                                          FY 2014 Planned Actions:
FNS did the following:                                            FNS will do the following:
· Reported a FY 2013 improper payment rate of 1.09 percent        · Implement a State monitoring process for compliance with
  for the Child and Adult Care Food Program (CACFP), which          school meal program requirements;
  met its reduction target of 1.53 percent;                       · Require annual training for schools on certification and
· Reported a FY 2013 improper payment rate of 3.42 percent          accountability issues;
  for the Supplemental Nutrition Assistance Program, which        · Monitor the Special Supplemental Nutrition Program for
  met its reduction target of 3.81 percent;                         Women, Infants, and Children (WIC) vendor compliance
· Issued a policy memo detailing the school district’s ability      and provide program integrity training and oversight to
  and responsibilities to verify National School Lunch Program      strengthen vendor management;
  (NSLP)/School Breakfast Program (SBP) applications              · Perform feasibility evaluation test (Child and Adult Care
  beyond the required sample size if needed; and                    Food Program Improper Payments Meal Claim Assessment)
· Included milestones and results of past corrective actions in     to develop an estimate of meal counting/claiming errors; and
  its corrective actions plans.                                   · Establish realistic and achievable improper payment rate
                                                                    reduction targets and meet the targets for NSLP, SBP, and
                                                                    WIC.




                                                       Page 20 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)




SECTION 4. IMPROPER PAYMENTS INFORMATION ACT
(IPIA)
The Improper Payments Information Act (IPIA) requires all agencies to 1) review all programs and
activities, 2) identify those that may be susceptible to significant improper payments, 3) estimate the
annual amount of improper payments for each program and activity and 4) report results.

Appendix C of OMB Circular A-123 defines significant improper payments as an annual amount that
exceeds both 2.5% of program payments and $10,000,000. For programs/payments that fit this
description, agencies must:

    ·   Measure and reduce the improper payments,
    ·   Identify the causes and take action to correct them,
    ·   Implement necessary infrastructure to support activities,
    ·   Develop proposals to obtain necessary infrastructure, and
    ·   Hold managers accountable for results.

FNS assessed all food assistance programs as well as its Nutrition Programs Administration (NPA)
funding, which support FNS’s Federal administrative operations. Assessments were conducted in 
conjunction with USDA-coordinated procedures. FNS, with OMB concurrence, has designated five
programs as susceptible to significant improper payments: the Supplemental Nutrition Assistance
Program (SNAP), the Special Supplemental Nutrition Program for Women, Infants and Children (WIC),
the Child and Adult Care Food Program (CACFP), the National School Lunch Program (NSLP) and the
School Breakfast Program (SBP). Improper payment measurement activities for each are described
briefly below.

    ·   The Supplemental Nutrition Assistance Program (SNAP – formerly known as the Food Stamp
        Program), sampling and erroneous payment measurement processes, [the accepted hallmark of
        the IPIA environment] has been a legislative mandate for more than 30 years. This process
        compares the certification criteria upon which a household’s benefit issuance is determined with
        the household’s circumstances at the time of issuance. All case results are accumulated by state. 
        The state results are validated and the validated results are combined into a national cumulative 
        (overpayments plus underpayments) error rate. No other payment lifecycle steps are included.  
        Improper payment measurement activities predate the passage of the IPIA.   SNAP processes 
        were compliant with the intent of the law when it was passed.  State agencies are required to 
        establish and collect SNAP claims in accordance with the requirements found in the Program 
        regulations.  Debts that become delinquent are subsequently submitted by the State agencies for 
        collection through the Treasury Offset Program.  In past years, FNS has used target measures to 
        gauge the success of recipient claims activity.  Claims collection by States is ongoing, however, 
        success in this area can be challenging, since collections are to a large extent tied to the ability of 
        each individual State to pursue and collect erroneous payments.  To complicate matters, State 
        error rates fluctuate over time with changes in the economy and in the numbers of the recipient 
        population 



                                                 Page 21 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)


    ·   In the Special Supplemental Nutrition Program for Women, Infants and Children (WIC),
        work is underway to report improper payment error rates on two segments of the program:
        certification error and vendor error.

            o   FNS first reported a vendor improper payment error rate in FY 2006. Over and under
                payment rates for FY 2005 were developed through a nationally representative study of a
                probability sample of WIC vendors. Data from this study along with information on
                vendor investigations by State WIC Agencies is used to prepare a statistically estimated
                improper payment amount for each subsequent year. The WIC Vendor Management
                Study was replicated in FY 2012 with results available in late 2013. Until the next study
                is completed, the 2012 rates will be aged using data generated by State undercover
                investigators who attempt to make WIC purchases using valid WIC food instruments.
                The charges submitted by each sampled vendor are compared to the undercover purchase
                activity to estimate overcharging, and other sanctionable violations. Case results are
                accumulated by State and used to age the estimates.

            o   Certification rate: The National Survey of WIC Participants-II (NSWP-II_) included a
                measurement of the amount of erroneous payments associated with certification error in
                FY 2009. WIC participants were interviewed and compared to the certification criteria
                upon which their benefit issuance was determined with the participant’s  circumstances
                at the time of issuance. The NSWP-II that contains a final estimate of erroneous
                payments due to certification error in FY 2009 was published in April 2012.

            o   Because erroneous payment estimates need to be produced annually, and given that
                surveys such as the NSWP-II are extremely expensive to mount, FNS required a
                methodology to “age” the estimates produced in that study.  The generation of improper 
                payments associated with erroneous WIC eligibility in the years beyond FY 2009, is
                based on a three-stage model. In the first stage, equations were developed from the
                NSWP-II survey data to predict the probability that a WIC participant was certified
                erroneously (i.e., deemed eligible when the participant’s actual income was not within 
                eligibility guidelines) and to predict the average annual cost of an erroneous 
                determination for those in error.  The second stage of the process focuses on predicting 
                the size and changes in the composition of the WIC population.  The files used for 
                gaining the WIC population included WIC Participant Characteristics data  a census of all 
                WIC participants enrolled within a particular target month (April of every even year)  and 
                WIC administrative data obtained from the National Data Bank that can provide 
                information on overall trends within WIC certification category and region.  The third 
                stage of the process is to apply the predictions generated from the first stage to the second 
                stage population.  This approach results in population-adjusted estimates of the incidence 
                of eligibility errors and dollar impact. 

Current statutory authority allows USDA to recover improper payments from state agencies when 
identified through reviews, audits or other operational oversight activities.  This authority does not 
support collection of improper payments identified on the basis of a statistical sample or estimation 
procedure, as is used to develop the national estimates of improper payments reported here. 

    ·   The Child and Adult Care Food Program (CACFP) has three distinct parts: Child Care 
        Centers, Adult Day Care facilities and Family Day Care Homes (FDCHs). Overall program 
        funding is provided to state agencies which provide funds to sponsoring organizations to pay for 


                                                Page 22 of 64
                       FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                            NOTES TO THE FINANCIAL STATEMENTS
                          (Amounts shown are in Millions except as noted)

claims for reimbursable meals served at provider sites. Sites can be as large as an institution or as
small as a household. Each part of CACFP has its own reimbursement structure.

Payments and claim information are transferred among FNS, State agencies, program sponsors
and program sites; each such transaction represents a risk for improper payment. Because
requirements vary significantly for each different type of program sponsor and site, a
comprehensive assessment of improper payments is extremely complex.

The original plan was to develop a program-wide study which would examine reimbursements
for meals served and develop program error measurements that complied with the requirements
of the IPIA. Because of the complexities of the program, FNS estimated that it would cost
$20 million to measure improper payments at the precision required by IPIA. This amount has not
been appropriated.

FNS has identified the FDCH component of this program as potentially high risk, and measures
error in this part of the program in lieu of the unfunded comprehensive measure. FDCHs
participate in CACFP through public or private nonprofit sponsoring organizations. FDCH
improper payments are most likely caused by sponsor error in determining a participating home’s 
reimbursement tier (tiering error) or by FDCH error in reporting the number of meals which are
eligible for reimbursement (claiming error).


Two activities are underway which provide information on improper payments in the
FDCH component of CACFP. A third activity is being pilot tested.

    o   CCAP – In the spring of 2004, FNS began the Child Care Assessment Project
        (CCAP). This project was designed to measure the effectiveness of efforts to improve
        the integrity of CACFP family day care homes and provide information from a broadly
        representative national sample of sponsors and providers. Data were collected by the
        Food and Nutrition Service (FNS), in cooperation with State agencies and sponsors
        administering the Child and Adult Care Food Program, during the period 2004-
        2007. The CCAP process was designed to measure whether the two interim management
        improvement rules issued by FNS in 2002 and 2004 had been properly implemented, and
        whether the rules had effectively addressed the serious program management and
        integrity problems that had been uncovered in the 1990s. In the three and one-half years
        during which assessments were conducted, FNS gathered the program records of 58
        family day care home (FDCH) sponsors and over 3,000 of their providers. A final report
        was issued in July 2009. Overall, the findings indicated that the serious problems which
        had prompted the previous legislative and regulatory action were not common in 2004-
        2007. However, some concerns were identified, including the accuracy of recordkeeping
        by family day care home providers and the use of the serious deficiency process by
        program sponsors.

        While the CCAP report identified areas of potential weakness in the local-level
        Management of the CACP in FDCH, it indirectly raised questions about State and
        Federal oversight of CACFP—specifically, why existing review mechanisms do not
        identify some of the serious management weaknesses identified during CACFP.

        In order to more closely examine State agency administration of the CACFP in these
        identified areas of management weakness, FNS implemented the Targeted

                                        Page 23 of 64
                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                      NOTES TO THE FINANCIAL STATEMENTS
                                    (Amounts shown are in Millions except as noted)

                          Management Evaluation (TME) process for FYs 2010 and 2011 as one part of FNS’ 
                          Response to the findings of the CCAP. Three of the four areas covered in the TMEs
                          (State agency budget review and approval, State agency monitoring, and State agency
                          implementation of the serious deficiency and appeals process) were identified by
                          CCAP as particular areas of management concern in CACFP. For FY 2012 and FY
                          2013. FNS developed a two-year work plan to address ongoing integrity concerns in
                          the CACFP. The plan recognizes that results from FNS’ two-year TME approach in  
                          2010 and 2011 because results provide data that can be used to develop resources and  
                          training for  CACFP State and local agencies. This plan combines monitoring and    
                          resource development activities to address program weaknesses. 

             o   Sponsor error – FNS has developed an annual sponsor tiering error measure and tested 
                 it.  CACFP sponsors are responsible for determining whether family day care homes 
                 receive meal reimbursement at the higher rate (Tier 1) or lower rate (Tier 2).  In FY 2005, 
                 the first annual data collection began to determine a nationally representative sponsor 
                 tiering determination error rate.  Results for FY2005 through FY2012 have been reported.  
                 FY 2012 estimates were available in August 2013.   

             o   Claiming error - In its 2006 measurement plan, FNS proposed to test the feasibility of 
                 estimating the risk of claiming errors. FNS proposed to select a random sample of 
                 sponsoring organizations and, from each, use a random selection of the sponsor’s 
                 monitoring visits of FDCHs.  FNS would compare the number of meals claimed with the 
                 number of children observed at the time of the visit.  If feasible to conduct, it was 
                 assumed that this comparison would provide an estimate of the risk of overpayment. 

                 FNS staff collected data in 11 family day sponsors around the country, gathering a 
                 random sample of 268 FDCH sponsor monitoring visit records.  For each, FNS gathered 
                 the FDCH’s meal claim data for the month of the monitoring visit and the month before.  
                 Results were analyzed and released in a report in May 2009; FNS found that the tested 
                 method does not provide a reliable estimate of family day care meal claiming error.   

                 FNS developed and pilot tested additional alternatives to determine the feasibility of 
                 estimating the risk of claiming error by methods such as direct observation of FDCHs or 
                 by contacting parents to determine if children were really present at a FDCH when 
                 claimed.  This test found that parent recall surveys are worthy of further evaluation as the 
                 method most likely to yield reliable information on improper payments related to meal 
                 claiming errors.  A report on the feasibility study was released in September 2009.  

                  An expanded feasibility study (CACFP Improper Payment Meal Claim Assessment) is 
                 currently underway to assess the feasibility of using information from parent-recall 
                 interviews in the validation of meal claims submitted for reimbursement by family 
                 daycare home providers.   

        Improper payments identified through the course of a review, audit, or through other operational 
        oversight activities can be recovered either through direct billing or through an offset of future 
        program payments earned.  Current statutes only provide authority to recover improper payments 
        identified through reviews, audits or other operational oversight activity.  Program regulations 
        allow States to waive claims against a single institution for improper payments of up to $600 in a 
        single fiscal year.  CACFP does not have authority to pursue collection of improper payments 
        identified on the basis of a statistical sample or estimation procedure. 

                                                  Page 24 of 64
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)



   ·   The National School Lunch Program and School Breakfast Program do not have a sampling
       and erroneous payment measurement process comparable to SNAP. Instead, FNS relies on
       nationally representative studies to produce estimates of erroneous payments. The most recent
       study was USDA’s NSLP/SBP Access, Participation, Eligibility and Certification Study (APEC)
       reported in 2007, which examined improper payments in a nationally-represented sample of
       schools. To update the erroneous payment rate estimates in NSLP since the 2007 APEC study
       was released, a series of econometric models were developed that captured the relationship
       between characteristics of the districts that participated in the APEC study and their estimated
       rates of certification error. Estimated coefficients from these models were used in conjunction
       with updated values of district characteristics obtained from the School Food Authorities
       Verification Summary Reports (Form FNS-742) to predict certification error. Certification error
       rates were then translated into amounts and rates of erroneous payments in each district.
       Aggregating the district level estimates produced a national measure of predicted erroneous
       payments. An updated study (APEC-II) is underway that collected data in School Year 2012-13.
       Results of this updated study are expected in 2014. Contingent upon available funding, FNS will
       continue to produce an erroneous payment measurement by updating this study every five years.
       FNS also uses data available from other sources to estimate erroneous payments due to
       certification error on an annual basis. Current statutory authority allows USDA to recover
       improper payments from state agencies when identified through review, audits or other
       operational oversight activities. Current statutory authority does not support collection of
       improper payments identified on the basis of a statistical sample or estimation procedure, as is
       used to develop the national estimates of improper payments reported here.



1. Policy Options for Addressing Improper Payments:

FNS recognizes its fundamental responsibility to promote effective program management and reduce and
prevent improper payments. But identifying strategies to address this problem is complicated by the
linkages between an environment with management controls, its operation in thousands of schools
balancing multiple responsibilities, and the need to avoid barriers to free or reduced price meals for
eligible children. To date, proposed strategies have generally been unacceptable to policymakers and
other stakeholders unless they:

   ·   Improve payment accuracy without compromising access for low-income families. A process that
       keeps eligible children from participating would undermine the program.
   ·   Avoid significant new burden on schools. Many schools consider the program burdensome now;
       adding burden without offsetting incentives could discourage schools from participating.
   ·   Are cost-effective. Improving accuracy is potentially resource-intensive; policymakers must not
       create a process that increases net program costs.
   ·   Answer the needs of other users of program data, which often use certification data to distribute
       millions of dollars in other kinds of benefits to schools. As these needs contribute to the problem,
       a solution may also require new commitments from those users.

Program changes to address NSLP payment accuracy are currently being implemented as a result of the
Healthy Hunger- Free Kids Act of 2010.




                                              Page 25 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)



Certification Error

As reported in USDA’s FY 2010 Performance and Accountability Report, there were approximately 
$840 million in improper payments in FY 2009 arising from misclassification of student eligibility for the
appropriate level of per-meal federal payment (free, reduced-price, or paid). About two-thirds of this
“certification error” results from the misreporting of income by households on Program applications.  The 
balance is due to administrative error at the school or school district. 

    ·   Misreporting Error – Currently, the application process for school meals relies on attestation by 
        households of their income, rather than any documentation by the applicant or use of third-party 
        data to verify claims at certification.  Policy reforms to address certification error arising from 
        income misreporting by families have focused on requiring information beyond the applicant’s 
        claim to support the application.  To date, the most successful of these have been categorical 
        eligibility and direct certification, which rely on participation in means-tested programs that do 
        require income documentation, such as the Supplemental Nutrition Program (SNAP), to ensure 
        eligibility for free meals. 

        Steps beyond this, to require documentation or increase verification after certification, have 
        largely been opposed in Congress and the advocacy community due to concerns that such 
        requirements would reduce access to meals by low-income families. 

    ·   Administrative Error – These kinds of certification errors reflect mistakes made by school 
        personnel in processing applications – misreading the attested income information, or applying 
        the eligibility standards incorrectly.  Traditionally, school districts have had significant discretion 
        regarding their internal procedures for application review. 

Significant reforms to the certification process require legislative action; and some legislative changes in 
this area were included in the Healthy, Hunger Free Kids Act of 2010 (HHFKA); these are noted when 
relevant in the descriptions of the options below:  

Increase verification: Currently, a small number of household applications (up to 3%) are selected for 
verification of income after approval.  Free or reduced price eligibility status may be changed based on 
the documentation received, and those who do not respond to the verification request have their eligibility 
revoked.   

During the 2004 reauthorization, the Administration informally offered a proposal for “graduated” 
verification, which would require larger verification samples (25% or more) in school districts which 
found significant misreporting in the initial sample.  Opponents of expanded verification cited an FNS 
analysis which found high rates of “non-response” to the request for income documentation, resulting in 
loss of certification, and further found that approximately half of non-respondents were eligible for free or 
reduced price benefits.  Moreover, a demonstration of graduated verification did not show a measurable 
reduction in improper payments.  In the end, this proposal was rejected on a bipartisan basis, due to 
concerns about the impact on eligible families, and Congress prohibited school districts from verifying 
more than the statutorily-required 3 percent, making that requirement both a minimum and a maximum.   

We could reconsider the graduated verification approach tested in the pilots, or options such as removing 
or increasing the 3 percent ceiling.  However, as with up-front income documentation, the current impact 
of any increased verification requirements on program costs or on eligible families is not clear, as direct 
certification and changes to the verification process in recent years have likely impacted the 
                                                Page 26 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)

characteristics of the applications subject to verification. But the requirement of an affirmative response
to the documentation request would almost certainly lead some families, including some eligible families,
to lose benefits due to non-response. As with the up-front documentation requirement, additional
resources would be required at the SFA level to conduct additional verification activities.

Eliminate the reduced-price category: The reduced-price benefit category (between 130 and 185 percent
of the poverty level) is considerably more prone to error than the free category, with approximately one-
third of students approved for reduced price actually eligible for free meals and another quarter only
eligible for the paid reimbursement level. Eliminating this category by making free meals available to
these children would eliminate the first category of errors, and also simplify the application approval
process at the school level to some degree.

This option has been strongly promoted by some in the advocacy community in prior years as an
administrative reform that would also increase access to meals for families that may not be able to afford
the charges (up to 40 cents) for reduced-price meals. And authority exists for a pilot to eliminate the
reduced-price category (though it has never been funded). However, the cost of this option is significant.
Making reduced price meals free will increase Federal reimbursements for lunch and breakfast by an
estimated $250 million in FY 2012 due to the increased costs to the Federal government for meals that are
already being served. However, if eliminating the need to pay even a nominal amount encourages more
frequent participation by these students, the annual cost could be significantly in excess of this amount.

Establish universal free meal programs: Reimbursing all meals at the free rate would, by definition,
eliminate the $840 million in estimated payment errors associated with the eligibility certification process.
This approach would also be welcomed by many in the school nutrition and anti-hunger community, as it
would simplify the program; underscore the importance of nutritious school meals for all students, and
eliminate stigma associated with receipt of free or reduced-price meals.

However, because this option is so costly, it is not likely to be feasible in the current fiscal environment.
When last estimated, it was found that the cost of providing universal free school meals would about
double program costs from $12.6 billion in FY 2009 to $25 billion.

Enhance local requirements for review of applications: As noted, school districts traditionally have had
significant discretion regarding their internal procedures for application review. However, the HHFKA
requires school districts at high risk for error (as defined by USDA) to conduct a second-level review of
applications prior to notifying families of their eligibility status. FNS will implement this provision
through proposed regulation in early 2012. In addition, the frequency of the required State review of
local operations will be increased from once every five years to once every three years.

Expand the pool of students certified using non-application based methods: Direct certification with
SNAP, FDPIR and TANF records has been shown to be a highly accurate method of identifying eligible
students. The HHKFA contained numerous provisions designed to increase direct certification, including
rewarding States for improvement in direct certification rates; and establishing a large-scale
demonstration project for direct certification with Medicaid.

In addition, the HHFKA provides new alternatives to paper application systems in low-income areas,
which will reduce the number of paper applications that are processed manually and establish eligibility
criteria based on information other than household reporting.




                                                 Page 27 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)



Non-Certification Error:

Improper payments of approximately $614 million were due to the submission of claims for payments
reflecting inaccurate counts of reimbursable meals. About half of these non-certification errors result
from meals being claimed for reimbursement which do not actually meet Federal standards for the types
and amounts of food served. The other half arise from errors in the aggregation and submission of meal
service data to school districts and State agencies.

Options for reducing non-certification error focus on strengthening capacity at the local level to avoid
errors, and strengthening oversight by State agencies to correct errors prior to payment of claims. Both
approaches require increased authority and increased administrative resources, some of which were
provided by the HHFKA:

Training of school food service personnel: Improved training at the local level would focus on
improving understanding of the requirements associated with a reimbursable meal. The HHKFA
establishes requirements and modest funding for such training. FNS is currently working in collaboration
with professional food service organizations to develop on-line resources. However, improvements in
error associated with recognizing reimbursable meals will be made more difficult by the anticipated
implementation of major changes in meal requirements anticipated during the next several school years.

Improved technology for counting and claiming of meals: While automated tools for counting and
claiming meals exist, they have not been consistently utilized, at either the local or State level. Currently,
there is no targeted local level funding for this purpose. At the State level, $4 million per year is available
for grants to improve State oversight, including systems that utilize data mining concepts to identify
districts at high risk for errors. FNS has in recent years focused these funds on technology-focused
approaches which allow States to identify and correct counting and claiming errors at the school district
level and target appropriate action. However, to date, such systems are still largely in the developmental
stages and have not been systematically evaluated.

The primary barrier to this approach is cost for evaluation and funding of local-level technology. We
believe that $20-30 million annually would support evaluation efforts at the State and local level (see
section 3 below). While we do not have a precise estimate of the cost of funding improved technology at
the local level, we believe an investment of several hundred million dollars in targeted grant funding
would be required.

Improved oversight and enhanced consequences for repeated failure to correct identified problems: As
noted, the HHFKA reduced the cycle for State reviews of local school operations from five years to three.
These reviews include non-certification as well as certification error. In addition, the HHFKA provided
FNS with new authority to impose fines and penalties against States and local program operators for
repeated or willful noncompliance. While this authority can be used to address all types of program error,
it is likely that it will be most useful in dealing with serious counting and claiming problems for which
little recourse previously existed. USDA will implement this requirement via proposed regulation in
early 2012.

Conceptually, systematic penalties for States with performance below required standards in this area (or
rewards for those with outstanding performance) are another option for consideration. However, this
would require the development of measurement systems yielding reasonably accurate State-level
estimates, which are currently not in place. The Quality Control system currently used in SNAP costs in


                                                 Page 28 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

the area of $200 million per year to operate. We estimate that a similar system for school meals would be
at least as costly, given the greater diversity and decentralization of the program at the sub-State level.

Pilot a Recovery Auditing Process: Utilize the upcoming USDA contract for recovery auditing to
conduct a pilot study for NSLP to determine if such a process would be feasible and cost-effective. Cost
would vary depending on the scale and scope of the pilot.


2. Measurement Issues

USDA identified three actions that we intend to pursue in this area:

Repeat and/or Enhance National Study: FNS completed the initial nationally-representative estimates
of NSLP improper payments with the 2007 Access, Participation, Eligibility and Certification (APEC)
study, which examined School Year 2005-06. USDA re-programmed funds for APEC II to allow data
collection in School Year 2012-13. Results of this updated study are expected in 2014.

Explore Additions to the Annual Estimation Model: FNS uses an econometric model to “age” the data 
from the APEC study to reflect changes in program size, as well as changes in certification accuracy,
based on State-reported administrative data. One of the major sources of non-certification error, the
process of identifying reimbursable meals and collecting and reporting meal counts for reimbursement
claims, is not currently built into the model because of data limitations. The Agency has placed a major
focus on administrative efforts to improve counting and claiming, but is unable to model the impact of
these efforts over time. To the extent that improvements in counting and claiming may have occurred, the
annual estimates may overstate the actual level of payment errors.

FNS will explore the potential of using data from the Coordinated Review Effort (CRE) process, which
includes information on counting and claiming, to improve its modeling. Because the CRE is a Federal-
State oversight mechanism for local schools and CRE data is not designed to be representative, this effort
may require changes to that process to make the data usable, and thus may require significant time and
resources, and an increase in reporting burden.

Identify and Measure Technical vs. Substantive Errors: OMB noted that one of the strategies frequently
used by Federal agencies in reporting improper payments is to distinguish between substantive errors and
technical errors. The latter may include:
· payments that were substantively appropriate in amount and to the correct payee, but were incorrect
    because of application problems or other minor violations of program rules;
· payments that may have been to a correct payee, but incorrect in amount, for which the whole
    payment is reported as entirely incorrect; and
· payments that are below a threshold or tolerance of errors that can be disregarded.

The APEC study leaves out the first two categories of errors, but provides no threshold of error levels.
One question that remains open is whether thresholds that may be different from program policy are
acceptable to incorporate into measurement methods.

FNS will identify one or more school-level thresholds for improper payments, and seek to analyze
existing data to determine how such thresholds would change the substantive error rate. If existing data
does not permit this differentiation, we will incorporate the necessary data elements into the APEC II
study to allow this calculation.


                                                Page 29 of 64
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)




3. Proposed Short-Term Strategies

Obtain funding for measurement improvements: FNS re-programmed funds to promptly launch APEC
II to allow data collection in School Year 2012-13.

Request $20-30 million to pilot test and evaluate technology-based program management tools: FNS
recommends the establishment of a mandatory annual funding stream in the budget to provide consistent
resources to develop and evaluate program integrity tools. This resource would be used to fund and
evaluate local-level pilots of comprehensive counting and claiming systems, and analysis techniques
(such as data mining). It would also be available to evaluate the effectiveness of State-level oversight
systems. These efforts would inform development of future proposals for technology enhancements
targeted at the local level, as well as informing future use of existing funds for State systems.

Implement HHFKA provisions: As noted, the HHFKA provides authority for a number of policy
changes which will have an impact on improper payments. FNS will continue to move expeditiously to
implement these provisions.

Additional information on FNS’ Improper Payments Information Act (IPIA) activities can be found in the
USDA Performance and Accountability Report.

The tables below summarize the results of measurement activities for FNS programs identified as subject
to a significant risk of improper payments. The first table shows improper payment rates for the last two
years and the second table reflects future reduction targets. All results reported each year represent
measures of outlays and program activity for the previous year.




                                               Page 30 of 64
                                       FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                            NOTES TO THE FINANCIAL STATEMENTS
                                          (Amounts shown are in Millions except as noted)




            Preliminary Data as of 7/31/13 – FNS Measures for IPIA Reporting
                      2013 Performance and Accountability Report
                                 Improper Payment Sampling Results ($ in millions)
                                                            Results                        Results
                         Program                      Reported in FY 2012            Reported in FY 2013
                                                   Outlays    IP%         IP$      Outlays   IP%       IP$
  Supplemental Nutrition Assistance Program, FNS               71,813        3.80%          2,729     74,639      3.42%      2,553
  National School Lunch Program, FNS                           10,024       15.53%          1,557     11,304     15.69%      1,774
  School Breakfast Program, FNS                                 2,987       25.18%            752      3,290     25.26%        831
  Women, Infants and Children, FNS
    Total Program                                               4,886        4.13%           202       4,520     4.38%        198
    Certification Error Component                                 N/A        2.98%           146         N/A     2.97%        134
    Vendor Error Component                                        N/A        1.15%            56         N/A     1.41%         64
  Child and Adult Care Food Program, FNS
    Total Program                                               2,653          N/A           N/A       2,817       N/A        N/A
    FDC Homes – Tiering Decisions                                 N/A        1.58%            14         917     1.09%         10
    FDC Homes – Meal Claims                                       N/A          N/A           N/A         N/A       N/A        N/A




                  Detailed Breakout of Improper Payment Rates reported in FY 2013 ($ in millions)
                                              Total                      Over-          Under-
                                                          IP%                                                              Other
                                            Payments                  payments         payments
 Supplemental Nutrition Assistance Program,
 FNS                                                  2,553         3.42%               2.77%             .65%              N/A
 National School Lunch Program, FNS                   1,774         15.69%             11.91%            3.78%              N/A
 School Breakfast Program, FNS                         831          25.26%             21.77%            3.49%              N/A
 Women, Infants and Children, FNS                      198          4.38%               3.25%            1.13%              N/A

 Child and Adult Care Food Program, FNS
                                                         10         1.09%              1.09%             0.00%              N/A




                                 Improper Payment Reduction Outlook ($ in millions)
                              FY 2013 Reporting           FY 2014 Reporting                             FY 2015 Reporting
      Program
                           Outlays    IP%       IP$  Outlays      IP%         IP$                    Outlays    IP%       IP$
Supplemental Nutrition
Assistance Program,
FNS                           76,030      3.79%      2,897         76,030     3.78%          2,897      79,471     3.80%       3,020
National School Lunch
Program, FNS                  11,106      15.10%     1,677         11,414     14.67%         1,674      12,682    15.17%       1,924
School Breakfast               3,467      24.36%       845
Program, FNS                                                        3,617     23.57%           853       3,809    23.62%           900
Women, Infants and
Children, FNS                  4,560      4.00%        182          5,290     3.92%            207       4,887     4.18%           204


                                                        Page 31 of 64
                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                        NOTES TO THE FINANCIAL STATEMENTS
                                      (Amounts shown are in Millions except as noted)


                             Improper Payment Reduction Outlook ($ in millions)
                          FY 2013 Reporting           FY 2014 Reporting                          FY 2015 Reporting
      Program
                       Outlays    IP%       IP$  Outlays      IP%         IP$                 Outlays    IP%       IP$
Child and Adult Care
Food Program, FNS            922     1.53%          14             951    1.48%          14        956   1.43%      14




    SECTION 5. LIMITATIONS OF FINANCIAL STATEMENTS
    The principal financial statements have been prepared to report the financial position and results of
    operations of the Food and Nutrition Services (FNS), an agency of the United States Department of
    Agriculture, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared
    from the books and records of FNS in accordance with GAAP for Federal entities and the formats
    prescribed by OMB, the statements are in addition to the financial reports used to monitor and control
    budgetary resources which are prepared from the same books and records.

    The statements should be read with the realization that they are for a component of the U.S. Government,
    a Sovereign entity.


    SECTION 6. FINANCIAL STATEMENTS HIGHLIGHTS AND
    ANALYSIS
    FNS’ FY 2013 financial statements reflect the nutrition assistance programs’ responsiveness to the 
    Nations’ economic performance. By design, the level of activity within the nutrition assistance programs 
    varies with the level of need experience by the populations we serve. A key determinant of this level of 
    need is the condition of the economy. In FY 2012 the economy performed weaker than was anticipated by 
    the President’s FY 2012 budget request. As a result, program participation and costs, as reflected in the 
    financial statements are, on average, higher than was anticipated. 

    In accordance with the US Standard General Ledger and the Treasury Financial Manual 1TFM 4700, in 
    FY 2008 FNS clarified its reporting of the Grant Award (GAD) Accrual.  FNS performed an analysis of 
    the GAD Accrual and determined that the GAD Accrual consisted of Entitlement Benefits and Non 
    Entitlement Benefits. For the FY 2013 Financial Statements FNS will report Entitlement Benefits as 
    “Benefits Due and Payable” and report Non Entitlement Benefits as “Other Liabilities” on the Balance 
    Sheet and related footnotes. The classifications of these accruals have no impact on the amounts reported 
    for Total Liabilities. 

    Balance Sheet
                                              2013                            2012
                                    Dollars (mil)        Percent     Dollars(mil)  Percent
    Fund Balance With Treasury             27,442         96.61%          25,559   96.86%
    Accounts Receivable                       364          1.28%             356    1.35%
    General PP& E                              -           0.00%                1   0.01%
    Other                                     598          2.11%             469    1.78%
       Total Assets                        28,404        100.00%          26,385 100.00%

                                                    Page 32 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)


Accounts Payable                             8        0.03%                10        0.04%
Employee Benefits                            8        0.03%                 7        0.03%
Benefits Due and Payable                 4,040       14.22%             3,837       14.58%
Other Liabilities                        1,521        5.35%             1,601        6.08%
  Total Liabilities                      5,615       19.77%             5,494       20.88%
Unexpended Appropriations               22,547       79.38%            20,514       77.97%
Cumulative Results of
Operations                                 242         .85%               378        1.16%
  Total Net Position                    22,789       80.23%            20,892       79.12%
Total Liabilities & Net
Position                                28,404         100%            26,385        100%




The Balance Sheet composition (comparative composition of account balances to the totals) remained
substantially the same in FY 2013 as the prior year. The vast majority of FNS assets are held in Fund
Balance with Treasury (FBWT) - approximately 96% in FY 2013 and FY 2012. This cash-like account
largely represents the aggregate amount of funds in the FNS accounts with the U.S. Treasury from which
the agency is authorized to make expenditures and pay liabilities. As financial statement Note 3 presents,
a substantial portion of the fund balance is unavailable as they are associated with either expired years or
are contingency funds which were not made available.

“Other assets” remained at levels consistent with the prior year.  Accounts receivable levels also remained
consistent with the prior year.

Benefits Due and Payable represents the largest liability of the agency, typically representing amounts
that are currently payable to grantees on Entitlement Benefits Programs. The FY 2013 and FY 2012 Net
Position of the agency is concentrated in Unexpended Appropriations.

Statement of Net Cost
                                      2013                                 2012
                            Dollars(mil)       Percent          Dollars(mil)          Percent
Gross Cost                        109,934      100.06%                 106,653         100.06%
Less: Earned Revenue                 (63)        -0.06%                    (69)          -0.06%
Net Cost of Operations            109,871      100.00%                 106,584         100.00%



The FNS mission addresses USDA Strategic Goal 4 “To Improve the Nation’s Nutrition and Health”.  All 
program costs are reported under that strategic goal. Gross Costs increased from $106,653 million in FY
2012 to $109,934 million in FY 2013, reflecting the overall increase in programs participation levels.

As the chart above displays, Earned Revenue represents an extremely small offset to Gross Costs (less
than one percent), in both fiscal years. Earned revenue largely represents funds from the State Option
Supplemental Nutrition Assistance Program authorized under P.L. 105-18. One State participating in this
program (California) reimburses FNS for benefits paid to legal immigrants who do not qualify for the
Federal Supplemental Nutrition Assistance Program to whom the States have “opted” to provide benefits.  

                                                 Page 33 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

Additional earned revenue is received from other Federal agencies for reimbursement of expenses related
to information technology services and facility-related services including WBSCM, Commodity
Improvement Initiative and Whole Grain Study.

The Net Cost of Operations increased from $106,584 million in FY 2012 to $109,871 million in FY 2013.


Statement of Changes in Net Position

                                          2013                                  2012
                                 Dollars(mil)  Percent           Dollars(mil)          Percent
Cumulative Results of
Operations
Beginning Balance                        378                                276
Appropriations Used                  100,802       91.86%                99,337           93.18%
Transfers In (Out) without
Reimbursements                          7,891       7.19%                 6,908            6.41%
Other Budgetary Financing
Sources                                   -        0.00%                      0            0.00%
Imputed Financing                      1,042        .95%                    441             .41%
  Total Financing Sources            109,735     100.00%                106,685          100.00%
Less: Net Cost of Operations         109,871                            106,584
Ending Balance                           242                                378
Net Change
                                        (136)                                102
Unexpended Appropriations
Beginning Balance                       20,514                            12,775
Appropriations Received               103,847                           110,347
Adjustments                            (1,015)                           (3,273)
Appropriations Used                 (100,802)                          (99,337)
Total: Financing Sources                 2,033                           (7,737)
Ending Balance                          22,547                            20,514


Total Net Position                     22,789                            20,892



The Statement of Changes in Net Position explains the changes in the two components of Net Position of
the Balance Sheet from year to year, the Cumulative Results of Operations and the Unexpended
Appropriations.

The FY 2013 appropriations used was $100,802 million, which increased $1,465 million from FY 2012,
based on actual participation levels and food costs.

Cumulative Results of Operations decreased $136 million, from $378 million in FY 2012 to $242 million
in FY 2013, as the net cost of operations is greater than the total financing sources. The proportional
distribution of financing sources among appropriations, transfers, and imputed financing remained
relatively unchanged from FY 2012 to FY 2013. Transfers are largely made up a single large transfer

                                                 Page 34 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

made in the annual appropriations act from funds available to the Secretary under Section 32 of the Act of
1935 for support of Child Nutrition programs. Additionally, FNS received transfers from the Commodity
Credit Corporation for the Senior Farmers Market Program. Transfers represented approximately seven
percent and six percent of total financing sources in FY 2013 and FY 2012 respectively.

Unexpended Appropriations increased from $20,514 million in FY 2012 to $22,547 million in FY 2013
as less carryover appropriation balances were expended in the current year. Adjustments which decreased
from $3,273 million in FY 2012 to $1,015 million in FY 2013 are due to permanent reductions and
cancellations of expired accounts.

Statement of Budgetary Resources

                                         2013                                 2012
                                Dollars(mil)  Percent          Dollars(mil)          Percent
Budgetary Resources
Beginning Unobligated
Balance                               18,365      14.11%              10,726             8.54%
Recoveries                               987        .75%                 817              .65%
Other Changes In Unobligated
Balances                                 -388       -.30%             -3,262            -2.60%


Appropriations                       111,115      85.31%             117,371            93.32%
Spending Authority from
Offsetting Collections                    173        .13%                117              .09%


Total Budgetary Resources            130,252     100.00%             125,769           100.00%

Status of Budgetary
Resources
Obligations Incurred                 110,042      84.48%             107,404            85.45%
Apportioned                            4,789       3.68%               5,581             4.44%
Unapportioned                         15,421      11.84%              12,784            10.11%
Total: Status of Budgetary
Resources                            130,252     100.00%             125,769           100.00%

Net Outlays                          108,843      83.56%             105,935            84.28%




                                                Page 35 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)




FNS has revised the format for the Statement of Budgetary Resources for FY 2013 in accordance with
OMB Circular A-136 dated October 21, 2013. The Statement of Budgetary Resources displays the source
of all budgetary resources for the fiscal year as well as the status of those resources as of the end of the
fiscal year.

Appropriations were decreased from $117,371 million in FY 2012 to $111,115 million in FY 2013. Total
budgetary resources were higher than in the prior year due primarily to an increase in the unobligated
balance brought forward from the previous year. FNS had $130,252 million in total budgetary resources
during FY 2013, largely from appropriations received, but also from recoveries and available unobligated
balances from prior periods. In addition FNS has included in the FY 2013 financial statements the ARRA
supplemental appropriations used to stimulate the U.S. economy. The ARRA appropriations for FY 2013
totaled $6.8 billion.


At fiscal yearend 2013, most ($110,042) million or 84% of those resources were obligated, though $4,789
million or 3% remained unobligated and available, and another $15,421 million (11%) was unobligated
and not available (including apportioned unavailable Contingency Reserve funds for WIC and SNAP). In
FY 2013, Net Outlays represented 83% of Total Budgetary Resources, compared to 84% in FY 2012.




                                                Page 36 of 64
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                  NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)




                                         Food and Nutrition Service

                                CONSOLIDATED BALANCE SHEET
                            As of September 30, 2013 (CY) and 2012 (PY)
                                        (Dollars in Millions)

                                                      FY 2013                             FY 2012
                                                       (CY)                                (PY)
Assets (Note 2):
    Intragovernmental:
              Fund Balance with
              Treasury                      $     27,442                           $   25,559
              Other (Note 6)                         598                                  469
    Total Intragovernmental                       28,040                               26,028
    Accounts Receivable, net (Note 4)                364                                  356
    General Plant, Property, and
    Equipment, net (Note 5)                           -                                    1
    Other (Note 6)                                    -                                    -
Total Assets                                $     28,404                           $   26,385

Liabilities (Note 7):
    Intragovernmental:
              Accounts Payable              $          -                           $       0
              Other (Note 8)                          38                                  38
    Total Intragovernmental                           38                                  38

    Accounts Payable                                   8                                  10
    Federal Employee and Veterans
    Benefits                                          8                                    7
    Benefits Due and Payable                       4,040                                3,837
    Other (Note 8)                                 1,521                                1,601
Total Liabilities                                  5,615                                5,493

Net Position:
    Unexpended Appropriations -
    Other Funds                                   22,547                               20,514
    Cumulative Results of Operations -
    Other Funds                                      242                                 378
Total Net Position                          $     22,789                           $   20,892
Total Liabilities and Net Position          $     28,404                           $   26,385



                                                Page 37 of 64
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)


                   The accompanying notes are an integral part of these statements.

Note: CY denotes Current Year; PY
denotes Prior Year.




                                      Food and Nutrition Service
                           CONSOLIDATED STATEMENTS OF NET COST
                     For the Years Ended September 30, 2013 (CY) and 2012 (PY)
                                         (Dollars in Millions)


                                                           FY 2013                        FY 2012
                                                            (CY)                           (PY)
Program Costs:
   Strategic Goal:
       Improve the Nation's Nutrition
       and Health:
                   Gross Costs
                   (Note 10 and 11)           $    109,934                          $ 106,653
                   Less: Earned
                   Revenue                                63                              69
                   Net Program
                   Costs                           109,871                           106,584

Net Cost of Operations                        $    109,871                          $ 106,584



                   The accompanying notes are an integral part of these statements.




                                               Page 38 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)




                                  Food and Nutrition Service
                 CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                         As of September 30, 2013 (CY) and 2012 (PY)
                                     (Dollars in Millions)

                                                        FY 2013                          FY 2012
                                                         (CY)                             (PY)
Cumulative Results of Operations:
Beginning Balance                               $           378                      $      276
Beginning Balance, as adjusted                              378                             276

Budgetary Financing Sources:
                 Appropriations
                 Used                                  100,802                            99,337
                 Transfers in/out
                 without reimbursement                   7,891                             6,908
                 Other                                       -                                 -

Other Financing Sources (Non-
Exchange):
                 Imputed Financing                        1,042                            441

Total Financing Sources                                109,735                           106,685
Less: Net Cost of Operations                           109,871                           106,584
Net Change                                                (136)                             102

Cumulative Results of Operations                            242                             378

Unexpended Appropriations:
Beginning Balance                                        20,514                           12,775
Beginning Balance, as adjusted:                          20,514                           12,775

Budgetary Financing Sources:
                 Appropriations
                 Received                              103,847                            110,347
                 Appropriations
                 Transferred in/out                           3                                2
                 Other Adjustments                       (1,015)                          (3,273)
                 Appropriations
                 Used                                (100,802)                           (99,337)
                 Total Budgetary
                 Financing Sources                       2,033                             7,739
Total Unexpended Appropriations                         22,547                            20,514

Net Position                                    $       22,789                       $    20,892



                   The accompanying notes are an integral part of these statements.


                                                Page 39 of 64
                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                NOTES TO THE FINANCIAL STATEMENTS
                              (Amounts shown are in Millions except as noted)




                                   Food and Nutrition Services
                    CONSOLIDATED STATEMENTS OF BUDGETARY RESOURCES
                   For the years ended September 30, 2013 (CY) and 2012 (PY)

                                  (Dollars in Millions)
                                                                         FY 2013          FY 2012
                                                                           (CY)             (PY)
Budgetary Resources:
Unobligated balance, brought forward, October 1:                    $     18,365      $    10,726
Adjustments to unobligated balance brought forward,
October 1                                                                        -              -
Unobligated Balance brought forward, October 1, as
adjusted                                                                  18,365           10,726
Recoveries of prior year unpaid obligations                                  987             817
Other Changes in unobligated balance (+ or-)                                (388)           (3,262)
Unobligated balance from prior year budget authority,
net                                                                       18,964           8,281
Appropriations (discretionary and mandatory)                             111,115          117,371
Borrowing authority (discretionary and mandatory)                              -                -
Contract authority (discretionary and mandatory)                               -                -
Spending Authority from offsetting collections
(discretionary and mandatory)                                                   173           117
Total Budgetary
Resources                                                                130,252          125,769

Status of Budgetary
Resources:
Obligations Incurred                                                     110,042          107,404
Unobligated balance, end
of year:                                                                        -               -
Apportioned                                                                 4,789           5,581
Exempt from
apportionment                                                                  -                -
Unapportioned                                                             15,421            12,784
Total unobligated balance, end of year                                    20,210           18,365
Total budgetary
resources                                                                130,252          125,769



Change in Obligated
Balances:
Unpaid obligations, brought forward, October 1 (gross)                      7,195           6,660

                                            Page 40 of 64
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)


Adjustment to obligated balance,start of year (net) (+ or-)                         -          -
Obligated Incurred                                                           110,042       107,404
Outlays gross (-)                                                           (109,013)     (106,052)
Actual transfer, unpaid obligations (net) (+ or -)                               -              -
Recoveries of prior year unpaid obligations (-)                                (987)         (817)
Unpaid obligations, end of year 2013                                          7,237          7,195
   Uncollected payments:
Uncollected payments, Federal sources, brought
forward, October 1 (-)                                                              -          -
Adjustments to uncollected payments, Federal sources,
start of year (+ or -)                                                              -          -
Change in uncollected payments, Federal sources, start
of year (+ or -)                                                                    -          -
Actual transfer, uncollected payments, Federal sources
(net) (+ or -)                                                                      -          -
Uncollected payments, Federal sources, end of year (-)                              -          -

  Memorandum (non-add) entries:
Obligated balance, start of the year (+ or -)                                     7,195     6,660
Obligated balance, end of year (+ or -)                                           7,236     7,195



Budget Authority and
Outlays, Net:
Budget Authority, gross
(discretionary and
mandatory)                                                                  111,288       117,487
Actual offsetting
collections (discretionary
and mandatory) (-)                                                                (173)      (117)
Change in uncollected customer payments from Federal
sources ( discretionary and mandatory) (+ or -)                                     -          -
Anticipated offsetting collections (discretionary and
mandatory (+ or -)                                                                  -          -
Budget Authority,
(discretionary and
mandatory) net                                                              111,115       117,370

Outlays, gross
(discretionary and
mandatory)                                                                  109,013       106,052
Actual offsetting
collections (discretionary
and mandatory) (-)                                                                (173)     (117)
Outlays, net
(discretionary and
mandatory)                                                                  108,840       105,935
Distributed offsetting
receipts discretionary and
mandatory (-)                                                                       3          -

                                              Page 41 of 64
                      FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                           NOTES TO THE FINANCIAL STATEMENTS
                         (Amounts shown are in Millions except as noted)

Agency outlays, net
(discretionary and
mandatory)                                                          108,843   105,935




                                       Page 42 of 64
                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                      NOTES TO THE FINANCIAL STATEMENTS
                                    (Amounts shown are in Millions except as noted)




                                  FOOD and NUTRITION SERVICE

 Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

   These financial statements have been prepared to report significant assets, liabilities, net cost of
   operations, changes in net position, and budgetary resources for the Food and Nutrition Service
   (FNS), as required by the Chief Financial Officers Act of 1990 as amended and OMB Circular
   A-136 dated October 21, 2013. They have been prepared from the books and records of FNS in
   accordance with the Generally Accepted Accounting Principles (GAAP) as applied to the
   Federal Government. GAAP for Federal financial reporting entities recognizes the Federal
   Accounting Standards Advisory Board (FASAB) as the standard setting body.

   FNS has revised the format for the Statement of Budgetary Resources for FY 2013 in accordance
   with OMB Circular A-136 dated October 21, 2013. Also, in accordance with the Office of
   Management and Budget and the Budget Execution of the American Recovery and Reinvestment
   Act (ARRA) of 2009 Appropriations, FNS has included in the FY 2013 financial statements the
   supplemental appropriations used to stimulate the U.S. economy. The ARRA appropriations for
   FY 2013 totaled $6.8 billion.

B. Reporting Entity

   FNS, including the Center for Nutrition Policy and Promotion (CNPP), is under the jurisdiction
   of the Under Secretary for Food and Nutrition Consumer Service of the United States
   Department of Agriculture. FNS is headed by an administrator with overall policy formulated in
   the FNS headquarters in Alexandria, Virginia, and implemented through seven regional offices,
   27 field offices/satellite offices, and two Supplemental Nutrition Assistance Program (SNAP)
   compliance offices. State departments of education have responsibility for food programs
   serving children in schools, child care centers, and summer recreation centers. State departments
   of health, welfare, and agriculture usually have responsibility for programs providing SNAP
   benefits or supplemental foods. For the FY 2013 financial statement presentation, data classified
   as “Other” is primarily comprised of Nutrition Program Administration (NPA) appropriations.
   A detailed description of the FNS programs is contained in the Management Discussion &
   Analysis (MD&A).

C. Basis of Accounting

   FNS records transactions on an accrual accounting and a budgetary basis. Under the accrual
   method, revenues are recognized when earned and expenses are recognized when a liability is
   incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates
   compliance with legal constraints and controls over the use of Federal funds. These financial
   statements include all funds for which the FNS is responsible and were prepared in accordance
   with the GAAP hierarchy of accounting principles for the Federal Government.




                                                  Page 43 of 64
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)



D. Accounts Receivable

 The $364 million recognized as non-federal accounts receivable includes debts owed to FNS by
 individuals, businesses, States and local governments. The largest single component of this item
 consists of SNAP recipient claims. States establish claims against households to recover over
 issued food stamp benefits. States are responsible for pursuing collection of such claims.
 Collections, less an authorized State retention amount, are remitted to FNS. The portion of total
 net realizable receivables consisting of SNAP recipient claims is the expected amount of such
 remittance from States. The data generated by the State systems of gross account receivables has
 been determined to be unreliable. Accordingly, FNS does not know what the State gross account
 receivable is. FNS has an alternative method for acquiring reliable State receivable information.

 FNS estimates net realizable SNAP accounts receivable through a regression-based statistical model.
 This model estimates future collections by the States, which the States will remit to the Federal
 Government as of the end of the accounting period based on the actual SNAP issuance and net claims
 collections for prior years. The forecasting model draws its predictive power from the strong historical
 relationship between the level of SNAP benefit issuance and the level of recipient claims collections by
 States. Applying the model to actual data covering the periods FY 1984 through FY 2013, the model
 explains 96 percent of the variation in claims collections. Historically, collections projected by the model
 have proved to be accurate within approximately 4 percent of actual net collections. Because the
 expected cash flow from collections of such claims beyond one year is not expected to be material, FNS
 does not estimate collections after the initial year or discount the estimate produced by the statistical
 model to its present value.

 The SNAP has a system for monitoring and controlling program issuance called the Quality
 Control (QC) system. It is an ongoing, comprehensive monitoring system required by the SNAP
 Act to promote program integrity. A statistically valid sample of cases, consisting of active cases
 and “negative case actions” (terminations and denials of benefits), is chosen each month.  State 
 officials review the sampled case records to measure and verify the accuracy of eligibility and
 benefits determinations, made by State eligibility workers, against Program standards for the
 month under review. QC errors detected through the review process include both under issuance
 and over issuance to eligible households and issuance to households that are not eligible for
 benefits.

 Because reliable data is not available addressing gross FNS accounts receivable, the SNAP QC
 estimate of SNAP benefits over issued nationwide provide the best statistically valid estimate of
 invalid program payments. Fiscal Year 2012 QC error rates were announced in June 2013. Using
 this methodology, FNS estimates the value of benefit over issuance in Fiscal Year 2012 (the most
 recent year for which data are available) at $2.069 billion. Statement of Federal Financial
 Accounting Standards (SFFAS) #1 permits Federal entities to estimate its accounts receivable.
 The QC error rate over issuance estimate is considered the best estimate available. However,
 since this is an estimate of all SNAP overpayments, the actual State gross account receivable
 amount would be lower but the variance cannot be quantified. The amount of over issued benefits
 is included in the total program cost of the SNAP as reflected in the Statement of Net Cost.


 FNS does not receive information to calculate States’ QC liabilities for approximately 7 months after the 
 end of the fiscal year; therefore, current information is not available for the FY 2013 financial statements.   
 For FY 2012, seven States were assessed amounts for having excessive error rates for two consecutive 

                                                 Page 44 of 64
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)

 years. The aggregate total of the liability was $3 million. The seven States signed payment agreements in
 lieu of immediately repaying in cash. The agreements called for each State to invest 50 percent of its
 liability in program improvement activities. The remaining 50 percent of the liability was placed at risk
 pending future improved performance.


          The QC over Issuance error rate data for the past 3 years follows:

            Fiscal Year              Rate Amount                    Total $ (Billions)
            2012                     2.77 %                         $ 2.069
            2011                     2.99 %                         $ 2.148
            2010                     3.05 %                         $ 1.977


E. Grants and Program Benefits

FNS records grant obligations based on the grant awards and SNAP benefits based on the issuance of
benefits to AMA. Funds for FNS grant programs and SNAP electronic benefits transfer (EBT) benefits are
provided to States through a Letter of Credit process. This process allows the grantees or the EBT
processor to draw on established credit balances, as needed, to pay expenses associated with their grants or
SNAP EBT transactions at retailers. This allows the U. S. Treasury to hold funds until the grantees need
the funds to pay program expenses or until the SNAP EBT benefits are actually used. Expenses are
recognized and obligations liquidated as grantees or EBT processors drawdown on the Letter of Credit.

F. Annual, Sick, and Other Leave

 Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
 balance in the accrued annual leave account is adjusted to reflect current pay rates. To the extent
 that current or prior year appropriations are not available to fund annual leave earned but not
 taken, funding will be obtained from current or future financing sources. Sick leave and other
 types of non-vested leave are expensed as taken.



G. Retirement Plan

 FNS employees participate in both the Civil Service Retirement System (CSRS) and the Federal
 Employees Retirement System (FERS). FNS makes matching contributions to both CSRS and
 FERS total plans. For most employees hired since December 31, 1983, FNS also contributes the
 employer's matching share for Social Security. FERS went into effect pursuant to Public Law 99-
 335 on January 1, 1987. Most employees hired after December 31, 1983, are automatically
 covered by FERS and Social Security. A primary feature of FERS is that it offers a savings plan
 to which FNS automatically contributes 1 percent of pay and matches any employee contribution
 up to an additional 4 percent of pay. FNS makes these and other contributions to employee
 retirement plans as shown in the following table:




                                                 Page 45 of 64
                                    FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                         NOTES TO THE FINANCIAL STATEMENTS
                                       (Amounts shown are in Millions except as noted)


                          FNS Retirement Contributions (In Millions)
                                                                              Amount
  Type of Contribution                                                      2013          2012

  CSRS/Transitional retirement contributions - Civil Service                $1.5          $1.7
  FERS regular contributions                                               $12.4         $11.0
  Thrift Savings Plan contributions                                         $4.6          $4.1
  TOTAL                                                                     $18.5         $16.8




 These contributions are reported as expenses in the Statement of Net Cost. FNS does not report
 CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if any, applicable to its
 employees. Reporting such amounts is the responsibility of the Office of Personnel Management's
 Federal Retirement System.

 Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal
 Government, requires Federal entities to recognize an expense for pensions and other retirement benefits
 at the time the employee’s services are rendered. The purpose of recognizing this expense is to record and 
 report the full cost of each entity’s operation.  Corresponding revenue, Imputed Financing Sources, is 
 recognized to the extent pension and other retirement benefit expenses exceed the amount paid to the 
 Office of Personnel Management (OPM).  

H. Recognition of Financing Sources and Appropriations Used  

 FNS receives the majority of the funding it needs to support its programs through annual and 
 multi-year appropriations.  FNS recognizes appropriations as used at the time that program or 
 administrative expenses are delivered and recognized.  FNS recognizes appropriations expended 
 for capitalized property or equipment as expenses when the assets are consumed in operations.  
 Appropriations used are the amount of appropriations expended during the current period to fund 
 FNS’ nutrition programs. This includes the NPA appropriation, which provides funds for salaries 
 and administrative expenses.  

 At the time grant awards are made, FNS records obligations for the full amount of expected 
 expenses as unexpended obligations-unpaid (undelivered orders).  Reductions in unexpended 
 obligations occur as expenses are incurred by grantees.  At year-end, grant obligations are accrued 
 and reflected on the financial statements as accounts payable. At grant closeout, the unused 
 portions of grant awards are deobligated; increasing the unobligated balances and is shown on the 
 balance sheet as part of unexpended appropriations.  Unobligated balances available for future 
 periods are also shown as unexpended appropriations. 


  
  
  
  
  
  

                                                     Page 46 of 64
                                    FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                         NOTES TO THE FINANCIAL STATEMENTS
                                       (Amounts shown are in Millions except as noted)

I. Fund Balance with Treasury Accounts

   The Fund Balance with Treasury represents the aggregate amount of funds in the FNS accounts with
   Treasury for which the agency is authorized to make expenditures and pay liabilities. The FNS Fund
   Balance with Treasury is primarily appropriated funds.


J. Direct versus Reimbursable Obligations Incurred

   As of FY 2013,  FNS’  direct  and  reimbursable  obligations  incurred  are  represented  as  amounts 
   apportioned under category A  and  B.  The  amounts  apportioned  by  Fiscal  Quarter  consist  of  FNS’ 
   category  A  obligations  and  the  amounts  apportioned  for  Special  Activities  consist  of  category  B 
   obligations  as reported on the agency’s  year-end  SF133s,  Report on Budget  Execution  and Budgetary 
   Resources. 

     
K.  Allocation  Transfers 
   
    FNS is a party to allocation transfers with other federal agencies as a receiving (child) entity. Allocation 
    transfers  are  legal  delegations  by one  agency  of its authority  to  obligated  budget  authority and  outlay 
    funds to another agency. A separate fund account (allocation account) is created in the U.S. Treasury as 
    a  subset  of  the  parent  fund  account  for  tracking  and  reporting  purposes.  All  allocation  transfers  of 
    balances are credited to this account, and subsequent obligations and outlays incurred by the child entity 
    are  charged  to  this  allocation  account  as  they  execute  the  delegated  activity  on  behalf  of  the  parent 
    entity.  Financial  activity related  to these allocation transfers is reported in the  financial statements of 
    the  parent  entity,  from  which  the  underlying  legislative  authority,  appropriations  and  budget 
    apportionments are derived. FNS has reported all activity relative to these allocation transfers in the FY 
    2013  financial  statements.  FNS  receives  allocation  transfers,  as  the  child,  from  the  Agricultural 
    Marketing Service (AMS) and the Commodity Credit Corporation (CCC). 

    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    

                                                     Page 47 of 64
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)



Note 2. Non-Entity Assets

                                                                         FY 2013               FY 2012
Intragovernmental:
  Fund balance with Treasury                                                      $0                   $0
  Investments                                                                      -                    -
  Accounts Receivable                                                              -                    -
  Loans Receivable                                                                 -                    -
  Other                                                                            -                    -
Total Intragovernmental                                                            -                    -
With The Public
  Cash and other monetary assets                                                   -                    -
  Accounts receivable                                                             37                   34
  Taxes receivable                                                                 -                    -
  Loan receivable and related foreclosed property                                  -                    -
  Inventory and related property                                                   -                    -
  Other                                                                            -                    -
Total With the Public                                                             37                   34

Total non-entity assets                                                           37                   34

Total entity assets                                                       28,367                26,351

Total assets                                              $               28,404       $        26,385

FNS’  Non-Entity  Assets  related  to  Accounts  Receivable  consists  of  FNS’  Miscellaneous  Receipts, 
Interest, Fines & Penalties, and Miscellaneous Receipts for Cancelled Years.  

 
 
Note 3. Fund Balance with Treasury 



Fund Balances:                                                        FY 2013              FY 2012
   Trust Funds                                                   $            - $                 -
   Revolving Funds                                                            -                   -
   Appropriated Funds                                                    27,446              25,560
   Other Fund Types                                                          (4)                 (1)
Total                                                                    27,442              25,559

Status of Fund Balance with Treasury:
Unobligated Balance:
   Available                                                              4,789               5,581
   Unavailable                                                           15,421              12,784
Obligated Balance not yet Disbursed                                       7,236               7,195
Non-Budgetary Fund Balance with Treasury:                                    (4)                 (1)
  Clearing Account Balances                                                   -                   -
Total                                                            $       27,442 $            25,559



                                              Page 48 of 64
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)



Note 4. Accounts Receivable, Net



                                         Allowance for
                  Gross Accounts         Uncollectible           Accounts
     FY 2013      Receivable             Accounts                Receivable, Net
Intragovernmental $              -       $               -       $               -
With the Public   $          368         $             4         $         364
  Total           $          368         $             4         $         364


                                         Allowance for
                  Gross Accounts         Uncollectible           Accounts
     FY 2012      Receivable             Accounts                Receivable, Net
Intragovernmental $              -       $             -         $               -
With the Public   $          365         $             9         $           356
  Total           $          365         $             9         $           356



(1) See Note 1.D. for further explanation of FNS’ accounts receivable activity with the public.




                                              Page 49 of 64
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)



Note 5. General Property, Plant and Equipment

Property and equipment are depreciated over their useful economic lives, which average 5-10
years, using the straight-line method. For FY 2013 FNS’ capitalization threshold for property 
and equipment is $25 thousand. FNS’ capitalization threshold for internal-use software is $100 
thousand. FNS owns no buildings or land. FNS follows recognition and measurement criteria in 
SFFAS No. 6 as amended by SFFAS No. 11 and 23, and USDA Departmental Regulation 2200-
002, dated December 24, 2003. At year end, balances for Property, Plant, and Equipment were as 
follows: 

  FY 2013                                                 Useful                                                            Net
                                                           Life                                       Accumulated          Book
  Category                                               (Years)               Cost                   Depreciation         Value
  Land and Land Rights                                                  $                 -       $                -       $       -
  Improvements to Land                                                                        -                        -                   -
  Construction-in-Progress                                                                    -                        -                   -
  Buildings, Improvements and Renovations                                                     -                        -                   -
  Other Structures and Facilities                                                             -                        -                   -
  Equipment                                                5-10                               5                        5                   -
  Assets Under Capital Lease                                                                  -                        -                   -
  Leasehold Improvements                                                                      -                        -                   -
  Internal-Use Software                                     5                                 3                        3                   -
  Internal-Use Software in Development                                                        -                        -                   -
  Other Natural Resources                                                                     -                        -                   -
  Other General Property, Plant and Equipment                                                 -                        -                   -
    Total                                                               $                     8   $                    8   $               -


  

  FY 2012                                                 Useful                                                            Net
                                                           Life                                   Accumulated              Book
  Category                                               (Years)              Cost                Depreciation             Value
  Land and Land Rights                                                 $              -  $                     -  $            -
  Improvements to Land                                                                 -                        -                      -
  Construction-in-Progress                                                             -                        -                      -
  Buildings, Improvements and Renovations                                              -                        -                      -
  Other Structures and Facilities                                                      -                        -                      -
  Equipment                                               5-10                         5                        4                      1
  Assets Under Capital Lease                                                           -                        -                      -
  Leasehold Improvements                                                               -                        -                      -
  Internal-Use Software                                     5                         31                       31                      -
  Internal-Use Software in Development                                                 -                        -                      -
  Other Natural Resources                                                              -                        -                      -
  Other General Property, Plant and Equipment                                          -                        -                      -
    Total                                                              $              36 $                     35 $                    1


  
  
  
  
  
  

                                                Page 50 of 64
                            FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                 NOTES TO THE FINANCIAL STATEMENTS
                               (Amounts shown are in Millions except as noted)




    Note 6. Other Assets

                                                                                 FY 2013           FY 2012
Intragovernmental:
   Advances to Others                                                   $              -       $             -
   Prepayments                                                                           -                     -
   Other Assets                                                                        598                   469
Total Intragovernmental                                                                598                   469

With the Public:
  Advances to Others                                                                       -                     -
  Prepayments                                                                              -                     -
  Other Assets                                                                             -                     -
Total With the Public                                                                      -                     -


Total Other Asssets                                                     $              598     $             469



FNS’ “Intragovernmental-Other Assets” consist of Advances to Farm Service Agency/Commodity Credit 
Corporation for the purchase of commodities. 

 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                                             Page 51 of 64
                                         FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                               NOTES TO THE FINANCIAL STATEMENTS
                                             (Amounts shown are in Millions except as noted)



    Note 7. Liabilities Not Covered by Budgetary Resources



      Intragovernmental:                                                                       FY 2013        FY 2012
         Accounts payable                                                            $              -     $               -
         Debt                                                                                        -                     -
         Other                                                                                       1                     1
      Total Intragovernmental                                                                        1                     1
      With the Public:                                                                               -                     -
      Accounts Payable                                                                               -                     -
      Debt held by the public                                                                        -                     -
      Federal employee and veterans' benefits                                                        8                     7
      Environmental and disposal liabilities                                                         -                     -
      Benefits due and payable                                                                       -                     -
      Other                                                                                         12                    12
      Total With the Public                                                                         20                    19


      Total liabilities not covered by budgetary resources                                          21                    20


      Total liabilities covered by budgetary resources                                            5,594                 5,473

      Total liabilities                                                              $            5,615   $             5,493




     FNS’  “Intragovernmental-Other  Liabilities”  consist  of  Unfunded  FECA  Liability.  FNS’  “With 
     the Public-Other Liabilities” consist of Custodial Liability and Unfunded Leave.  

 




                                                             Page 52 of 64
                                     FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                          NOTES TO THE FINANCIAL STATEMENTS
                                        (Amounts shown are in Millions except as noted)

Note 8. Other Liabilities

   FY 2013                                                             Non-Current          Current        Total
   Intragovernmental:
     Contract Holdbacks                                       $                 -       $      -      $     -
     Other Accrued Liabilities                                                      -           2            2
     Employer Contributions and Payroll Taxes                                       -           1            1
     Other Post-Employment Benefits Due and Payable                                 -           -            -
     Unfunded FECA Liability                                                        -           2            2
     Other Unfunded Employment Related Liability                                    -           -            -
     Advances from Others                                                           -           -            -
     Deferred Credits                                                               -           -            -
     Liability for Deposit Funds, Clearing Accounts                                 -          (4)          (4)
     Contingent Liabilities                                                         -           -            -
     Capital Lease Liability                                                        -           -            -
     Liability for Subsidy Related to Undisbursed Loans                             -           -            -
     Accounts Payable from Canceled Appropriations                                  -           -            -
     Resources Payable to Treasury                                                  -           -            -
     Custodial Liability                                                            -          37           37
     Other Liabilities                                                              -           -            -
   Total Intragovernmental                                                          -          38           38

   With the Public:
    Contract Holdbacks                                                              -            -            -
    Other Accrued Liabilities                                                       -        1,505        1,505
    Accrued Funded Payroll and Leave                                                -            4            4
    Withholdings Payable                                                            -            -            -
    Employer Contributions and Payroll Taxes Payable                                -            -            -
    Other Post-Employment Benefits Due and Payable                                  -            -            -
    Pension Benefits Due and Payable to Beneficiaries                               -            -            -
    Benefit Premiums Payable to Carriers                                            -            -            -
    Life Insurance Benefits Due and Payable                                         -            -            -
    Unfunded Leave                                                                  -           12           12
    Other Unfunded Employment Related Liability                                     -            -            -
    Advances from Others                                                            -            -            -
    Deferred Credits                                                                -            -            -
    Liability for Deposit Funds, Clearing Accounts                                  -            -            -
    Prior Liens Outstainding or Acquired Collateral                                 -            -            -
    Contingent Liabilities                                                          -            -            -
    Capital Lease Liability                                                         -            -            -
    Accounts Payable from Canceled Appropriations                                   -            -            -
    Custodial Liability                                                             -            -            -
    Other Liabilities                                                               -            -            -
   Total With the Public                                                            -        1,521        1,521

   Total Other Liabilities                                    $                     - $      1,559 $      1,559




                                                      Page 53 of 64
                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                       NOTES TO THE FINANCIAL STATEMENTS
                                     (Amounts shown are in Millions except as noted)




FY 2012                                                               Non-Current          Current        Total
Intragovernmental:
  Contract Holdbacks                                         $                -        $      -      $     -
  Other Accrued Liabilities                                                       -            1            1
  Employer Contributions and Payroll Taxes                                        -            2            2
  Other Post-Employment Benefits Due and Payable                                  -            -            -
  Unfunded FECA Liability                                                         -            1            1
  Other Unfunded Employment Related Liability                                     -            -            -
  Advances from Others                                                            -            1            1
  Deferred Credits                                                                -            -            -
  Liability for Deposit Funds, Clearing Accounts                                  -           (1)          (1)
  Contingent Liabilities                                                          -            -            -
  Capital Lease Liability                                                         -            -            -
  Liability for Subsidy Related to Undisbursed Loans                              -            -            -
  Accounts Payable from Canceled Appropriations                                   -            -            -
  Resources Payable to Treasury                                                   -            -            -
  Custodial Liability                                                             -           34           34
  Other Liabilities                                                               -            -            -
Total Intragovernmental                                                           -           38           38

With the Public:
 Contract Holdbacks                                                               -             -            -
 Other Accrued Liabilities                                                        -         1,582        1,582
 Accrued Funded Payroll and Leave                                                 -             7            7
 Withholdings Payable                                                             -             -            -
 Employer Contributions and Payroll Taxes Payable                                 -             -            -
 Other Post-Employment Benefits Due and Payable                                   -             -            -
 Pension Benefits Due and Payable to Beneficiaries                                -             -            -
 Benefit Premiums Payable to Carriers                                             -             -            -
 Life Insurance Benefits Due and Payable                                          -             -            -
 Unfunded Leave                                                                   -            12           12
 Other Unfunded Employment Related Liability                                      -             -            -
 Advances from Others                                                             -             -            -
 Deferred Credits                                                                 -             -            -
 Liability for Deposit Funds, Clearing Accounts                                   -             -            -
 Prior Liens Outstainding or Acquired Collateral                                  -             -            -
 Contingent Liabilities                                                           -             -            -
 Capital Lease Liability                                                          -             -            -
 Accounts Payable from Canceled Appropriations                                    -             -            -
 Custodial Liability                                                              -             -            -
 Other Liabilities                                                                -             -            -
Total With the Public                                                             -         1,601        1,601

Total Other Liabilities                                      $                    - $       1,639 $      1,639




                                                   Page 54 of 64
                                         FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                 NOTES TO THE FINANCIAL STATEMENTS
                                             (Amounts shown are in Millions except as noted)




Note 9. Leases

Entity as Lessee:

Operating Lease (amounts shown are in thousands):

Description of Lease Arrangements: FNS’ holds one operating lease that includes office space leased from
May 1, 2009 through April 30, 2019. The cost of the lease is $623 per year until May 1, 2014. From May 1, 2014,
through April 30, 2019; the office space annual rent is reduced to $402 per year. The lease may be renewed at the option
of the Government for one 5 year term with the Government having the right to terminate, in whole or in part, at anytime,
by giving at least 120 days’ notice in writing to the Lessor. 

Future Payments Due: 

                                    Asset Category 

Fiscal Year                          Office Space  

2014                                    $ 623 
2015                                    $ 402 
2016                                    $ 402 
2017                                    $ 402 
2018                                    $ 402 
After 5 years                       $ 403 

Total future lease payments $2,634 
                                             




                                                           Page 55 of 64
                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                NOTES TO THE FINANCIAL STATEMENTS
                               (Amounts shown are in Millions except as noted)

Note 10. Intragovernmental Cost and Exchange Revenue


     Child Nutrition                                       FY 2013                   FY 2012

     Intragovernmental Costs                          $              520         $                107
     Public Costs                                     $           19,294         $             18,041
     Total Costs                                      $           19,814         $             18,148

     Intragovernmental Earned Revenue                 $                   -      $                  -
     Public Earned Revenue                            $                   -      $                  -
     Total Earned Revenue                             $                   -      $                  -

     SNAP

     Intragovernmental Costs                          $              403         $                256
     Public Costs                                     $           82,350         $             80,484
     Total Costs                                      $           82,753         $             80,740

     Intragovernmental Earned Revenue                 $                  -       $                 -
     Public Earned Revenue                            $                 62       $                67
     Total Earned Revenue                             $                 62       $                67

     Other                                                 FY 2013                   FY 2012

     Intragovernmental Costs                          $                162       $               162
     Public Costs                                     $                360       $               355
     Total Costs                                      $                522       $               517

     Intragovernmental Earned Revenue                 $                   1      $                 1
     Public Earned Revenue                            $                   -      $                 -
     Total Earned Revenue                             $                   1      $                 1


     Women, Infants & Children

     Intragovernmental Costs                          $                 -        $                  -
     Public Costs                                     $             6,543        $              6,981
     Total Costs                                      $             6,543        $              6,981

     Intragovernmental Earned Revenue                 $                    -     $                  -
     Public Earned Revenue                            $                    -     $                  -
     Total Earned Revenue                             $                    -     $                  -




                                             Page 56 of 64
                                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                NOTES TO THE FINANCIAL STATEMENTS
                                               (Amounts shown are in Millions except as noted)


        Commodity Assistance Program                                           FY 2013                           FY 2012

        Intragovernmental Costs                                            $                    33           $                                 -
        Public Costs                                                       $                   269           $                               267
        Total Costs                                                        $                   302           $                               267

        Intragovernmental Earned Revenue                                   $                         -       $                                   1
        Public Earned Revenue                                              $                         -       $                                   -
        Total Earned Revenue                                               $                         -       $                                   1



FNS’ intragovernmental costs are exchange transactions made between FNS and another entity within the Federal
government. FNS cost with the public are exchange transactions made between FNS and a non-Federal entity.  FNS’ 
intragovernmental exchange revenues are exchange transactions made between FNS and another entity within the Federal 
government. FNS exchange revenues with the public are exchange transactions made between FNS and a non-Federal 
entity. 

 
Note 11. Program Costs By Segment 

For the year ended September 30, 2013
                                                                                                                              Consolidated
                 Intragovernmental      CHILD NUTRITION       SNAP              WIC            CAP            OTHER              Total



    Total Gross Costs                             19,814        82,753           6,543              302           522               109,934

    Less Earned Revenue:                                  0           62                  0              0               1                  63

    Net Goal Costs:                              19,814         82,691           6,543              302           521               109,871


    Net Cost of Operations                                                                                                          109,871




 
 
For the year ended September 30,2012
                                                                                                                             Consolidated
                Intragovernmental       CHILD NUTRITION       SNAP             WIC            CAP            OTHER              Total



    Total Gross Costs                            18,148        80,740           6,981           267              517               106,653

    Less Earned Revenue:                              0              67               0              1               1                 69

    Net Goal Costs:                              18,148        80,673           6,981           266              516               106,584


    Net Cost of Operations                                                                                                         106,584




                                                              Page 57 of 64
                                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                    NOTES TO THE FINANCIAL STATEMENTS
                                                  (Amounts shown are in Millions except as noted)

Note 12. Exchange Revenues

FNS’ earned revenue from nonfederal parties consists largely of the $63 from the state option
Supplemental Nutrition Assistance Program.

On June 12, 1997, the President signed into law the Supplemental Appropriations Act, Public Law 105-
18. This law authorized the state option Supplemental Nutrition Assistance Program. In this program,
States issue SNAP benefits through the Federal government for use in a State-funded food assistance
program for legal immigrants, and childless, able-bodied adults ineligible for the Supplemental Nutrition
Assistance Program.

States operating a state option Supplemental Nutrition Assistance Program utilize FNS’ SNAP 
infrastructure.  That is, they utilized electronic benefits transfer (EBT) issued benefits from FNS which 
are transacted at FNS authorized SNAP retailers.  These benefits are subsequently redeemed through the 
Federal Reserve Banking (FRB) system.   

Prior to issuance, States are required to remit payment to FNS for the amount of the benefits issued as 
well as reimburse FNS for the costs of redeeming benefits. During fiscal year 2013, one State participated 
in this program, which generated earned revenues of $63.  
                                                                                                                                                                
 Note 13. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations  

    FY 2013                                          Direct                      Reimbursable                       Total
Apportionment by Fiscal Quarter      $                         30,425    $                          -   $                    30,425
Apportionment for Special Activities                           79,554                              63                        79,617
Exempt from Apportionment                                           -                               -                             -
Total Obligations Incurred           $                        109,979    $                         63   $                   110,042


    FY 2012                                          Direct                      Reimbursable                       Total
Apportionment by Fiscal Quarter      $                         29,644    $                          1   $                    29,645
Apportionment for Special Activities                           77,691                              68                        77,759
Exempt from Apportionment                                           -                               -                             -
Total Obligations Incurred           $                        107,335    $                         69   $                   107,404


Note 14.Explanation of Differences between the Statement of Budgetary Resources and the Budget of the United  
States Government 

Differences exist between FNS’ FY 2012 Statement of Budgetary Resources (SBR) (as provided to the 
Department for consolidation purposes) and the FY 2012 actual numbers presented in the FY 2014 
Budget of the United State Government (Budget).  These differences are summarized below: 

              Description                                 Budgetary Resources                                        Outlays
              2012 SBR                                          $ 125,768                                           $105,937
Less: Expired Accounts not                                           $7,014                                                    $-
Included in Budget
Add: Parent Child                                                           $5                                                $6   
Relationship (NIFA) 

Less: Appropriation Transfer                                              $77                                                 $-
not Included in Budget
Less: Differences due to                                                   $1                                                $(1)
Rounding

                                                                    Page 58 of 64
                                    FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                         NOTES TO THE FINANCIAL STATEMENTS
                                        (Amounts shown are in Millions except as noted)


Budget of the U.S.                                   $118,681                                 $105,944
Government

The actual numbers for the FY  President’s  Budget  have not  yet  been  published  as  of  FNS’  FY  2013 
financial  statements,  and  it  is  expected  that  the  actual  numbers  will  be  published  in  February  of  the 
following fiscal year and will be available on the website at www.whitehouse.gov. 

Note 15. Undelivered Orders at the end of the Period 

Budgetary resources obligated for undelivered orders as of September 30, 2013 and 2012 was $1.8 billion.  

 
Note 16. Incidental Custodial Collections 

 

Revenue Activity:                                                                   FY 2013              FY 2012
  Sources of Collections:
  Miscellaneous                                                               $               12    $               11
Total Cash Collections                                                                        12                    11
Accrual Adjustments                                                                           (4)                    (3)
Total Custodial Revenue                                                                        8                     8
Disposition of Collections:
Transferred to Others:
    Treasury                                                                                   -                      -
    States and Counties                                                                        -                      -
( Increase )/Decrease in Amounts Yet to be Transferred                                        (8)                    (8)
Refunds and Other Payments                                                                     -                      -
Retained by the Reporting Entity                                                               -                      -
Net Custodial Activity                                                        $                -    $                    -


FNS’ FY 2013 custodial activity represents all accounts receivable activity related to cancel year 
appropriations for interest, fines & penalties assessed and collected. For example; civil money penalties, 
interest, retailer and wholesaler fines and penalties. (See Note 1D., “Accounts Receivable”, for further 
disclosures on FNS’ collection activities). FNS transfers these types of collections to the Department of 
Treasury. FNS’ custodial collection activities are considered immaterial and incidental to the mission of 
FNS. 

 




                                                         Page 59 of 64
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

Note 17. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing)

Resources Used to Finance Activities:                                                FY 2013            FY2012

Budgetary Resources Obligated

    Obligations Incurred                                                             $ 110,042          $ 107,404
    Less: Spending authority from offsetting collections and recoveries                    1,160                933
                                                                                      ------------      -------------
    Obligations net of offsetting collections and recoveries                            108,882           106,470
    Less: Distributed Offsetting Receipts                                                      (3)               -
                                                                                      ------------      -----------
    Net Obligations                                                                    108,885            106,470
                                                                                       ------------     -----------
    Other Resources
    Donations and forfeitures of property                                                    -               -
    Transfers in (out) without reimbursement                                                 -               -
    Imputed financing from costs absorbed by others                                        1,042               440
    Other                                                                                   -               -
                                                                                       ------------      -----------
    Net other resources used to finance activities                                         1,042              440

                                                                                         FY 2013         FY 2012


    Total resources used to finance activities                                             109,927       106,911

   Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in budgetary resources obligated for goods, services and benefits
   ordered but not yet provided                                                                (49)         (296)
   Resources that fund expenses recognized in prior periods                                     -              -
   Budgetary offsetting collections and receipts that do not
    affect net cost of operations
       Credit Program collections which increases liabilities for
       loan guarantees or allowances for subsidy                                                -               -
       Change in Unfilled Customer Orders                                                        -             (1)
       Decrease in exchange revenue receivable from the public                                  -               -
       Other                                                                                     -              -
   Resources that finance the acquisition of assets                                              28              -
   Other resources or adjustments to net obligated resources that
   do not affect net cost of operations                                                          (3)              -
                                                                                          -----------    ------------
    Total resources used to finance items not part of the net cost
    of operations                                                                              (24)          (297)
                                                                                          -----------    -----------
        -

    Total resources used to finance the net cost of operations                             109,903       106,614
    Components of the Net Cost of Operations that will not require or

                                                 Page 60 of 64
                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                               NOTES TO THE FINANCIAL STATEMENTS
                             (Amounts shown are in Millions except as noted)

Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability                                                   -               -
   Increase in environmental and disposal liability                                    -                 -
   Upward/Downward re-estimates of credit subsidy expense                                -               -
   Increase in exchange revenue receivable from the public                             -                -
   Other                                                                                (3)           (36)
                                                                                 ----------     ----------
  Total components of Net Cost of Operations that will require or
  generate resources in future periods                                                 (3)          (36)
Components not Requiring or Generating Resources:
  Depreciation and amortization                                                       (28)             1
  Revaluation of assets or liabilities                                                -                 -
  Other Components not Requiring or Generating Resources:
     Bad Debt Expense                                                                  (1)             9
     Cost of Goods Sold                                                                -                -
     Other                                                                             -              (4)
                                                                                 -----------    ----------
Total components of Net Cost of Operations that will not require
    or generate resources                                                              (29)            6
                                                                                  -----------    ---------

Total components of Net Cost of Operations that will not require
    or generate resources in the current period                                      (32)            (30)
                                                                                  ----------     ---------

    Net Cost of Operations                                                      $ 109,871 $106,584
                                                                                  ======   ======




                                           Page 61 of 64
                                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                  NOTES TO THE FINANCIAL STATEMENTS
                                                (Amounts shown are in Millions except as noted)


                             FOOD AND NUTRITION SERVICE
                  REQUIRED SUPPLEMENTARY STEWARDHIP INFORMATION
                              STEWARDSHIP INVESTMENTS
                               (Amounts shown are in millions)


    Human Capital

1. A. Supplemental Nutrition Assistance Program (SNAP).

     B. Program Expense                                           2013            2012

         1. Employment and Training                                $81            $53

FNS’ human capital consists of employment and training (E&T) for the Supplemental Nutrition Assistance Program.  
The E&T program requires recipients of SNAP benefits to participate in an employment and training program as a
condition to SNAP eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T 
program has placed 501,754 work registrants subject to the 3 - month SNAP participant limit and 1,454,027 work 
registrants not subject to the limit in either job-search, job-training, job-workfare, education, or work experience.   

 
Nonfederal Physical Property 

1.     A. Supplemental Nutrition Assistance Program

       B.   Program Expense                                       2013          2012                  

             1. ADP Equipment & Systems                   $25            $38                     

 
FNS’ nonfederal physical property consists of computer systems and other equipment obtained by the State and 
local governments for the purpose of administering the Supplemental Nutrition Assistance Program. The total SNAP 
Expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial statements.  

 
2.    A. Special Supplemental Nutrition Program for Women, Infants and Children (WIC)  

       B.   Program Expense                                       2013          2012                  

             1. ADP Equipment & Systems                   $13            $13                    

 
FNS’ nonfederal physical property also consists of computer systems and other equipment obtained by the State and 
local governments for the purpose of administering the Special Supplemental Nutrition Program for Women, Infants 
and Children. 



 
 
 

                                                                 Page 62 of 64
                                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                        NOTES TO THE FINANCIAL STATEMENTS
                                                      (Amounts shown are in Millions except as noted)



            OTHER INFORMATION
                                                            Food and Nutrition Service
                                                               Schedule of Spending
                                                      For the year ended September 30, 2013




                                                                                                                       Non-budgetary Credit Reform
                                                                                                               Budgetary        Financing Accounts
What Money is Available to Spend?
Total Resources                                                                                $         130,252
Less Amount Available but Not Agreed to be Spent                                                           4,789
Less Amount Not Available to be Spent                                                                     15,421
Total Amounts Agreed to be Spent                                                                         110,042

How was the Money Spent/Issued?

Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:

11, 12, 13 - Personnel Compensation and Benefits
21, 22 - Travel and transportation
23 - Rent, communications, and utilities
24, 25 - Other contractual services
26 - Supplies and materials
31, 32 - Equipment, land, and structures
33 - Investments and loans
41 - Grants, subsidies, and contributions
42 - Insurance claims and indemnities
43, 44 - Interest, dividends, and refunds
90 - Other
Total

Ensure Our National Forests and Private Working Lands Are Conserved,
Restored, and Made More Resilient to Climate Change, While
Enhancing Our Water Resources:

11, 12, 13 - Personnel Compensation and Benefits
21, 22 - Travel and transportation
23 - Rent, communications, and utilities
24, 25 - Other contractual services
26 - Supplies and materials
31, 32 - Equipment, land, and structures
33 - Investments and loans
41 - Grants, subsidies, and contributions
42 - Insurance claims and indemnities
43, 44 - Interest, dividends, and refunds
90 - Other




                                                                    Page 63 of 64
                                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2013
                                                        NOTES TO THE FINANCIAL STATEMENTS
                                                      (Amounts shown are in Millions except as noted)


Total

Help America Promote Agricultural Production and Biotechnology
Exports as America Works to Increase Food Security:

11, 12, 13 - Personnel Compensation and Benefits
21, 22 - Travel and transportation
23 - Rent, communications, and utilities
24, 25 - Other contractual services
26 - Supplies and materials
31, 32 - Equipment, land, and structures
33 - Investments and loans
41 - Grants, subsidies, and contributions
42 - Insurance claims and indemnities
43, 44 - Interest, dividends, and refunds
90 - Other
Total

Ensure that All of America's Children Have Access to Safe,
Nutritious, and Balanced Meals:

11, 12, 13 - Personnel Compensation and Benefits                                                                   162
21, 22 - Travel and transportation                                                                                   5
23 - Rent, communications, and utilities                                                                             4
24, 25 - Other contractual services                                                                                204
26 - Supplies and materials                                                                                      1,460
31, 32 - Equipment, land, and structures                                                                              3
33 - Investments and loans
41 - Grants, subsidies, and contributions                                                                      108,203
42 - Insurance claims and indemnities
43, 44 - Interest, dividends, and refunds
90 - Other                                                                                                            1
Total                                                                                                          110,042
                                                                                                         108,202,790,631.82
                                                                                                                   15,386.44
Total Amounts Agreed to be Spent                                                                                110,042
                                                                                                                  (12,964.20)
                                                                                                              12,491,885.44
Who did the Money go to?
Federal                                                                                                             322
Non-Federal                                                                                                    109,720
Total Amounts Agreed to be Spent                                                                               110,042




                                                                    Page 64 of 64
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
